<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2021</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
   COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2021

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              SECOND SESSION

                             _______________

               SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE,
                          AND RELATED AGENCIES
                          
                          

                   JOSE E. SERRANO, New York, Chairman

  MATT CARTWRIGHT, Pennsylvania      ROBERT B. ADERHOLT, Alabama
  GRACE MENG, New York               MARTHA ROBY, Alabama
  BRENDA L. LAWRENCE, Michigan       STEVEN M. PALAZZO, Mississippi
  CHARLIE CRIST, Florida             TOM GRAVES, Georgia
  ED CASE, Hawaii
  MARCY KAPTUR, Ohio

  

  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

           Bob Bonner, Jeff Ashford, BG Wright, TJ Lowdermilk,
             Shannon McCully, Faye Cobb, and Trisha Castaneda
                            Subcommittee Staff

                                 _______

                                  PART 5

                                                                   Page

  Members' Day..........................
                                                                      1
  Public Testimony for the Record.......
                                                                     57
  Department of Commerce Fiscal Year 
2021 Budget Request.....................
                                                                    271

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                  

                                 ______

          Printed for the use of the Committee on Appropriations
          

                    U.S. GOVERNMENT PUBLISHING OFFICE

  44-514                    WASHINGTON: 2021

                             
                             
                             
                             
                             
                      COMMITTEE ON APPROPRIATIONS

                  NITA M. LOWEY, New York, Chairwoman

MARCY KAPTUR, Ohio                   KAY GRANGER, Texas
PETER J. VISCLOSKY, Indiana          HAROLD ROGERS, Kentucky
JOSE E. SERRANO, New York            ROBERT B. ADERHOLT, Alabama
ROSA L. DeLAURO, Connecticut         MICHAEL K. SIMPSON, Idaho
DAVID E. PRICE, North Carolina       JOHN R. CARTER, Texas
LUCILLE ROYBAL-ALLARD, California    KEN CALVERT, California
SANFORD D. BISHOP, Jr., Georgia      TOM COLE, Oklahoma
BARBARA LEE, California              MARIO DIAZ-BALART, Florida
BETTY McCOLLUM, Minnesota            TOM GRAVES, Georgia
TIM RYAN, Ohio                       STEVE WOMACK, Arkansas
C. A. DUTCH RUPPERSBERGER, Maryland  JEFF FORTENBERRY, Nebraska
DEBBIE WASSERMAN SCHULTZ, Florida    CHUCK FLEISCHMANN, Tennessee
HENRY CUELLAR, Texas                 JAIME HERRERA BEUTLER, Washington
CHELLIE PINGREE, Maine               DAVID P. JOYCE, Ohio
MIKE QUIGLEY, Illinois               ANDY HARRIS, Maryland
DEREK KILMER, Washington             MARTHA ROBY, Alabama
MATT CARTWRIGHT, Pennsylvania        MARK E. AMODEI, Nevada
GRACE MENG, New York                 CHRIS STEWART, Utah
MARK POCAN, Wisconsin                STEVEN M. PALAZZO, Mississippi
KATHERINE M. CLARK, Massachusetts    DAN NEWHOUSE, Washington
PETE AGUILAR, California             JOHN R. MOOLENAAR, Michigan
LOIS FRANKEL, Florida                JOHN H. RUTHERFORD, Florida
CHERI BUSTOS, Illinois               WILL HURD, Texas
BONNIE WATSON COLEMAN, New Jersey
BRENDA L. LAWRENCE, Michigan
NORMA J. TORRES, California
CHARLIE CRIST, Florida
ANN KIRKPATRICK, Arizona
ED CASE, Hawaii

                Shalanda Young, Clerk and Staff Director
                
                            C O N T E N T S

                              ----------                              

                              MEMBERS' DAY

                                                                   Page
Davis, Hon. Danny K., a Representative in Congress from the State 
  of Illinois....................................................     9
Gonzalez, Hon. Anthony, a Representative in Congress from the 
  State of Ohio..................................................    34
Gonzalez-Colon, Hon. Jenniffer, a Representative in Congress from 
  the Territory of Puerto Rico...................................    24
Hill, Hon. J. French, a Representative in Congress from the State 
  of Arkansas....................................................    12
Kennedy, Hon. Joseph P. III, a Representative in Congress from 
  the State of Massachusetts.....................................    30
Perlmutter, Hon. Ed, a Representative in Congress from the State 
  of Colorado....................................................    18
Schneider, Hon. Bradley Scott, a Representative in Congress from 
  the State of Illinois..........................................    40
Visclosky, Hon. Peter J., a Representative in Congress from the 
  State of Indiana...............................................     2
Yoho, Hon. Ted, a Representative in Congress from the State of 
  Florida........................................................     6

                          Submitted Testimony

Jackson Lee, Hon. Sheila, a Representative in Congress from the 
  State of Texas.................................................    44
Posey, Hon. Bill, a Representative in Congress from the State of 
  Florida........................................................    50
Rogers, Hon. Hal, a Representative in Congress from the State of 
  Kentucky.......................................................    54
Public witness testimony submitted for the record................    57



             U.S. DEPARTMENT OF COMMERCE FISCAL YEAR 2021 
                             BUDGET REQUEST

Ross, Hon. Wilbur, Secretary, U.S. Department of Commerce........   273





  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2021

                              ----------                              

                                           Wednesday, March 4, 2020

                              MEMBERS' DAY

    Mr. Serrano. Good afternoon, everyone. We welcome you to 
our first hearing for fiscal year 2021. It is fitting that 
today's hearing will be with our colleagues here in the House 
to hear about the programs and agencies that they feel strongly 
about.
    Given the expected budget constraints that all 
subcommittees will face this fiscal year, it is important that 
we hear from our colleagues about the programs making a 
difference to their communities. This year, we will hear from a 
bipartisan group of Members, all of whom will be asking for 
further investments by this subcommittee.
    I think it is instructive that on a day like this we are 
never asked to cut funding for programs or agencies, only to 
increase them. It shows the important role that the Federal 
Government plays in driving technological innovation, economic 
development, scientific research, a fair justice system, and 
public safety. I look forward to hearing from our witnesses 
today.
    And, with that, let me turn to my colleague and friend Mr. 
Aderholt.
    Mr. Aderholt. Thank you for yielding, Mr. Chairman, and I 
am pleased to be here today as we commence the fiscal year 2021 
approps process.
    This subcommittee is very uniquely situated to really take 
care of a lot of funding for a lot of important priorities. 
Space exploration, including the transformative Moon to Mars 
Initiative, is included under our jurisdiction; combating 
crime, including child exploitation, human trafficking, and 
incidents of mass violence; fostering fair trade; promoting 
innovation; improving weather forecasting; and investing in 
basic research.
    So I want to thank you, Mr. Chairman, for holding the 
hearing today and allowing each Member of the House to come 
before the subcommittee to convey not only their 
recommendations, but to educate us on matters that we need to 
be brought up to speed on and how we can be helpful. And it is 
important that Members have an opportunity to express their 
priorities and their concerns, as we will hear today.
    And as members of the Appropriations Committee, I know it 
is a desire for each of us who serve on this committee and of 
course this subcommittee to strive to work to make sure that 
the programs that we fund are doing what they can to impact 
constituencies across the United States.
    So, again, thank you, Mr. Chairman, for your leadership in 
this and to accommodate these priorities, and I know we will 
work the best we can as we move forward in the process. I thank 
my colleagues for taking time to be here today and we look 
forward to your testimony.
    And, with that, I yield back.
    Mr. Serrano. Thank you, Mr. Aderholt. And I do also join 
you in thanking our colleagues for being here today.
    Our first witness will be another member of the departing 
class of appropriators, which keeps growing by the day, Mr. 
Visclosky, Chairman Visclosky.

   STATEMENT OF HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Visclosky. Chairman, I appreciate the opportunity, Mr. 
Aderholt and Mr. Cartwright, for appearing before you today. 
Really, just three quick points.
    One, I am here to testify on behalf of appropriate funding 
for the ITC and I want to thank the committee for your very 
strong support and good work and help in the 2021 bill. You 
provided $99.4 million for the ITC, that was $4.4 million of 
critically needed funds more than fiscal year 2020. I would 
point out, this year my request is for $105 million for the 
ITC. I think it is eminently justifiable, despite the fact that 
the Office of Management and Budget has only requested 99.6. My 
statement is in the record, we have a number of items and 
justification for the request.
    I would simply point out that, for example, between fiscal 
year 2011 and 2015, there were an average of eight to ten 
filings annually for antidumping and countervailing duty cases, 
those have now increased to 16 or 18. The Harmonized Tariff 
Schedule has been revised 14 to 13 times in fiscal years 2018 
and 2019, in a typical year that might be three or four.
    So, again, I appreciate you holding the hearing and 
allowing me to testify, and look forward to working with you 
and your staff.
    [The prepared statement of Mr. Visclosky follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
   
    
    Mr. Serrano. Well, thank you. Your statement is well noted 
and will be included, of course, in our records, and we thank 
you for your ask. The answer is no. [Laughter.]
    Mr. Visclosky. You know I am not coming back. [Laughter.]
    Mr. Serrano. Neither am I. [Laughter.]
    Mr. Serrano. Mr. Aderholt?
    Mr. Aderholt. Thank you for your testimony here, and I 
understand the ITC and its important role. So certainly please 
know that we will do what we can to work on this issue to try 
to move forward, and so thank you for your commitment to it. 
Thank you.
    Mr. Serrano. Thank you. Thank you, Mr. Visclosky.
    Mr. Visclosky. Thank you very much, Mr. Chairman.
    Mr. Serrano. Mr. Yoho, Representative Yoho is our next 
speaker, witness.

  STATEMENT OF HON. TED S. YOHO, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Yoho. Thank you. Chairman Serrano, Ranking Member 
Aderholt, and committee members, thank you for allowing me to 
testify on my funding priority for fiscal year 2021 CJS 
appropriations.
    America has led in space exploration and our Nation, as the 
first to put humans on the Moon, we have set the standards for 
innovation. Now a new era is upon us. It is time to prepare for 
this next phase of space exploration and that is literally to 
go where no man or woman has ever gone before, which is why I 
am interested in NASA science funding to explore the effects of 
zero gravity and deep space radiation on mammalian eukaryotic 
or embryological development.
    I am a supporter of the Moon to Mars initiative and I am a 
firm believer that one day we will live in space or on 
different planets. However, before our species can live on or 
travel to Mars or distant planets, important questions on 
procreation outside of Earth's gravitational effects must be 
answered. We must know if human pregnancy and embryological 
development can be achieved in these environments.
    Basic questions like can a pregnancy, number one, occur and 
develop all the way through parturition in environmental space? 
Can fertilization occur? Does migration of an embryo go down 
the Fallopian tubes? Will uterine/embryo implantation take 
place? If not, why?
    How do the different biological systems develop, the 
physiological systems? Are long bones long, for instance? Are 
kidneys kidney-shaped, hearts heart-shaped? These are all 
things that we have never looked at. What is the nervous system 
and how does that develop, or the hematopoietic system? Are 
genes turned on or turned off, expressed differently in zero 
gravity or the effect of radiation to adapt to the 
corresponding zero gravity environment? Does the physiology of 
the organ systems function and behave the same as they are 
developing in zero gravity as they do on Earth?
    In order to prepare for future interplanetary travels, 
these questions must be answered. Going to Mars today is a one-
way trip and that is something that we should really look at 
and, you know, America has been such an innovator and leader in 
this. In order to prepare for future interplanetary travels, 
these questions regarding embryological development need to be 
answered. Studying this now on the ISS, while we have the 
benefit of time, will ensure we are prepared for the future of 
space travel.
    It is important to note that this type of research can and 
will lead to discoveries that benefit people on Earth as well. 
As scientists dive into zero gravity development, they may 
discover that genes express themselves differently. This 
variation of expression could be applicable to curing diseases 
hear on Earth now and we won't know this until this research is 
done.
    NASA has the ability to do this research on the ISS, but 
they need the funding to do so. We have proposed a rodent model 
because of their short gestational period, approximately 21 
days, and NASA's familiarity with the rodent model on the ISS. 
It is imperative that we as a nation invest in this type of 
cutting-edge research. Nobody else is doing this, which is why 
I am asking you to include the funding for nonhuman mammalian 
embryological experiments under the NASA science account in 
fiscal year 2021 in the CJS appropriations bill.
    Again, this kind of cutting-edge research will, pardon the 
pun, jettison the United States leadership light years ahead of 
any other country and the research that will come out of this 
will-- I truly believe when the researchers and the people in 
the science community says this is stuff that we need to know, 
you know, the things that we haven't discovered is what is 
going to lead medicine and research down the road, and I ask 
you to consider the appropriations for that.
    Thank you.
    [The prepared statement of Mr. Yoho follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    
    Mr. Serrano. Thank you. I thank you for your testimony. Let 
me tell you that this committee, both under Republican and 
Democratic leadership, has always been very friendly to NASA. 
In fact, my staff will probably get upset that I bring it up, 
but the only issue we have pending is do we go to the Moon in 
2028, as previously scheduled, or do we go in 2024, and there 
is a difference of opinion on that.
    But all that you speak about does two things, it makes us 
think and make us go to the dictionary and see what all those 
words you said mean, because they are very tough.
    Mr. Yoho. I'm sorry about that, it was just background.
    Mr. Serrano. No, it is quite all right. Thank you so much.
    Mr. Yoho. Thank you, I appreciate it.
    Mr. Serrano. Thank you. By the way, a clarification for my 
colleagues, CJS stands for Commerce, Justice, Science, not 
Congressman Jose Serrano. [Laughter.]
    Mr. Serrano. I don't have a committee named after me.
    Our next witness is Mr. Davis.

STATEMENT OF HON. DANNY K. DAVIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Davis. Thank you very much, Mr. Chairman Serrano, 
Ranking Member Aderholt, Mr. Cartwright, and other members of 
the CJS Appropriations Committee for hosting this opportunity 
for Members to advocate for critical programs.
    Today, I will talk briefly about the Second Chance Act or 
SCA, which I authored in the 110th Congress, after countless 
meetings with task force groups, community stakeholders, 
representatives from faith groups, clergy, and law enforcement. 
After several years of drafting, changes, advocacy, coalition 
building, and sweat equity, the SCA was signed into law on 
April 9, 2008. The SCA authorizes Federal grants for vitally 
important programs and systems aimed at improving the reentry 
process.
    The United States remains the most incarcerated nation on 
the face of the earth. Its prison population contains roughly 
2.2 million individuals housed in state prisons, Federal 
prisons, jails, and other correctional facilities. However, 
since passage of the SCA, more than 900 grants in 49 states, 
DC, and U.S. territories have been awarded. These grants have 
served more than 164,000 participants since 2009, with roughly 
80 percent of all adults served receiving mental illness, 
substance use disorder treatment and referrals, and 60 percent 
receiving cognitive-based services.
    The SCA has been a lifeline for former offenders. Grant 
dollars and other investments have allowed local and state 
governments opportunities to provide job training and 
wraparound services, thereby significantly reducing recidivism 
and developing new taxpaying citizens. Organizations like the 
Safer Foundation in Chicago have provided job training, job 
placement, and pathways to career opportunities for hundreds of 
men and women returning to severely low-income communities. As 
I travel across the country, I hear from small business owners, 
elected officials, and even some Fortune 500 executives 
boasting about their reentry programs and how the programs have 
been uplifting to their employee morale.
    Finally, the SCA is a true bipartisan success story and 
recently, because of successful programs like the SCA, Congress 
passed the First Step Act and are continuing to look at ways to 
reduce mass incarceration and sentencing reforms. Local 
governments, hospital systems, and private employers are now 
making investments in reentry. Success stories are being made 
every single day.
    So, Mr. Chairman and Ranking Member, I am hopeful we can 
maintain the fiscal year 2021 funding level of $90 million for 
the Second Chance Act, and I would be pleased to respond to any 
inquiries.
    Thank you very much and it is a pleasure.
    [The prepared statement of Mr. Davis follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    
    Mr. Serrano. No, we thank you for your testimony. We are 
very much interested in this program. As you know, we funded it 
at $90 million last year, so it is a priority to continue to do 
well by it, and we thank you for your advocacy for it.
    Mr. Aderholt?
    Mr. Aderholt. Thank you, Congressman Davis. And certainly I 
think these are important programs and, you know, we will 
certainly as we move forward. Your testimony has been very 
helpful, thank you for your testimony on it. And we will 
certainly work together to see what we can do to try to make 
the funding successful, so we look forward to working with you.
    Mr. Serrano. Thank you, Mr. Aderholt. And thank you, sir.
    Mr. Davis. Thank you both very much and it is a pleasure.
    Mr. Serrano. Our next witness is Mr. Hill, Representative 
Hill. You were moving there already, how did you know that?
    Mr. Hill. You have an excellent staff, Mr. Chairman.

STATEMENT OF HON. J. FRENCH HILL, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARKANSAS

    Mr. Hill. Well, thank you for the opportunity, Mr. 
Chairman, Ranking Member, for the opportunity for Members to 
participate today. I want to start my remarks today to echo my 
friend from Illinois, Mr. Davis, and talk about recidivism 
issues and some of the topics that he addressed. Mr. Davis is 
from Arkansas, so we are kindred spirits. He grew up in 
Parkdale, Arkansas, deep in the Mississippi Delta, and he is 
right on point in talking about strategies to reduce 
recidivism.
    The FBI and the Bureau of Prisons states that we spend an 
average of $36,000 a year per inmate on a prison population 
that dwarfs the rest of the world. Each year more than 600,000 
people leave our prisons, but three quarters of those 
recidivate within five years. This is a huge frustration to our 
state and local governments, and of course to the Federal 
Government.
    The costs to society of not acting on this issue are not 
limited to what taxpayers get. Higher recidivism rates lead to 
higher prison budgets, more beds to build, more dangerous 
streets, and fewer badly needed workers for our very worker-
needy labor force. The cost of un-rehabilitated offenders to 
communities, neighborhoods, families. More unemployed and 
unemployable fathers, families continue to struggle in the grip 
of addiction, children stuck in a despairing cycle of 
generational poverty, and consequences of a return to crime. 
All those costs are too high.
    How do we hold offenders accountable for their actions 
without denying them a return as contributing members of 
society?
    In Arkansas, Arkansas Baptist College and Shorter College 
have partnered with the Arkansas Department of Community 
Corrections to provide an entrepreneurship program for prison 
inmates during the last six months of their sentence. The 
program serves as a transition phase for inmates to gain 
academic and spiritual development, and encourages them to 
continue in their education at their schools after their 
release.
    Last year, I introduced legislation that would establish a 
pilot program at the U.S. Department of Justice to provide 
grants to Historically Black Colleges and Universities, HBCUs, 
to implement educational programs for eligible offenders and 
help them successfully transition back into their communities. 
This language is based on the outstanding work of the four 
HBCUs in and around my district.
    The average cost of attending an Historically Black College 
and University is around $16,000 per year. We spend upwards of 
$80 billion every year warehousing inmates. We could be saving 
valuable taxpayer funds.
    I believe we must look at this not only as a matter of the 
financial cost, but one of the human cost that I have noted. 
That is why I urge your committee to include the following 
language in its bill report to support the efforts of HBCUs to 
address this critical need.
    The language proposed would be, ``The Committee supports 
the U.S. Department of Justice coordination and collaboration 
with Historically Black Colleges and Universities to provide 
educational programs for recently released and soon to be 
released criminal offenders to assist them in obtaining skills 
that will let them successfully transition back into their 
communities and reduce recidivism rates.''
    I want to thank you for your consideration of this 
language.
    The second topic I want to touch on today relates to 
behavioral health. I would like to discuss mental health and 
support for the Mentally Ill Offender Act.
    Today in America, a behavioral health epidemic has 
manifested itself through increased drug usage, rising suicide 
rates, and a nationwide life expectancy that fell for two years 
in a row before a slight increase was reported in 2018. Too 
many times Americans suffering from mental illness turn to 
self-medication, using alcohol, prescription painkillers, and 
illegal substances. On average, opioid use kills 130 Americans 
per day.
    A slight increase in life expectancy indicates that we may 
be on the right track, but there is more that needs to be done 
to address this epidemic through comprehensive strategies and 
work to ensure that our state and local governments are 
equipped to care for non-violent offenders with mental health 
and other substance abuse disorders. I hope that you will give 
full and fair consideration to funding the Mentally Ill 
Offender Act, which provides grants for these overburdened 
state and local governments to support mental health courts, 
training the staff, and mental health and substance abuse 
treatment services, with the purpose of better addressing the 
needs for our non-violent offenders.
    By supporting these entities and addressing the substance 
abuse and mental health issues and challenges around non-
violent offenders, we can lower the impact of the opioid 
epidemic and decrease recidivism throughout our country.
    I appreciate your consideration of these requests and the 
opportunity to be before you today, and I yield back the 
balance of my time. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hill follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      
    Mr. Serrano. Thank you so much for your testimony and we 
truly appreciate it, your information and your concerns.
    Mr. Aderholt.
    Mr. Aderholt. Let me just echo the chairman's comments. I 
have had a chance to work since I have been in Congress with 
Historically Black Colleges and Universities, I understand the 
importance and the impact and the historical aspect of those. 
Certainly the Department of Justice, especially when it comes 
to trying to make sure that mentally-- the mentally impaired is 
something that we do not take lightly, it is something I also 
think is very important.
    So, thanks for your testimony on both of these things, your 
interest and your work on them, and we look forward to working 
with you on this committee and how we can try to be a piece of 
the puzzle in trying to make this work for everyone. So, thanks 
very much.
    Mr. Hill. Thank you very much. I yield back.
    Mr. Serrano. Thank you so much.
    Representative Perlmutter.

 STATEMENT OF HON. ED PERLMUTTER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Perlmutter. Mr. Chairman, Mr. Aderholt, Mr. Cartwright, 
thank you for having this hearing this afternoon, so that we 
can all make presentations to you about subjects and issues 
that are very important to our district. So, for me, I 
appreciate the opportunity to testify this afternoon about 
funding for NASA and working together to get our astronauts to 
Mars by 2033.
    Supporting NASA and our aerospace industry is one of my top 
priorities and Colorado has some of the best minds, companies, 
and capabilities in the aerospace industry. So not only is it a 
personal passion, obviously, it is something very important to 
my state. And, after all, Colorado, as Mr. Aderholt knows, Mr. 
Cartwright and Mr. Serrano, we are a mile above sea level, so 
the first mile to get our astronauts to Mars is free. 
[Laughter.]
    Mr. Perlmutter. We have one of the country's largest space 
economies, because we have just about everything in our state 
from a strong scientific research community to small, medium, 
and large commercial space companies, which work across the 
civil and defense communities.
    That is why I have been such a strong supporter for NASA, 
as have you, as I sit on the Science, Space and Technology 
Committee. And, importantly, it is about getting our astronauts 
to Mars by 2033. This is when the orbits of Earth and Mars are 
closest for years and it saves space travel and reduces the 
risk for radiation, as Mr. Yoho was talking about, for our 
astronauts. I believe we need this lead time for all of us to 
prepare for the undertaking, which is a complicated mission, 
obviously, which is going to require a lead by NASA, a public-
private partnership and international partnership.
    Exploration is in our DNA as Americans and as humans. We 
don't necessarily know where our exploration will take us, but 
the benefits we have seen right back here on Earth from our 
investment in exploration since the Mercury Program 60 years 
ago has been tremendous. We have a skilled and driven workforce 
we are investing in, and the inspiration for the next 
generation will open new doors for new technologies and 
answering new questions we can't even imagine today, like those 
that Representative Yoho was bringing up about birth.
    And while there are many things I disagree with with this 
administration, I do think aerospace is an area of bipartisan 
agreement here in Congress, in the White House, and at NASA. I 
support the goals for accelerating human missions to land on 
the Moon again-- that is now called the Artemis Program, as you 
know-- as long as that program continues to focus on reducing 
risk for our human missions to Mars.
    Space exploration is hard and it will require sustained 
investment from this subcommittee, and continued ingenuity by 
the smart people at NASA and in the commercial sector. I am 
asking for your help this year and for the next 13 to provide 
NASA with the resources for the Mars 2033 mission and the 
technologies needed for it like nuclear thermal propulsion; 
entry, descent, and landing systems for Mars; a Mars transport 
vehicle to get our astronauts around the planet; and many other 
long lead investments that are needed.
    I look forward to working with the subcommittee and the 
entire Congress so we can achieve this goal, which is a very 
difficult one and will be expensive, that is why we need to get 
going now.
    I am going to leave you with and I have left you with, and 
I will give anybody who wants one of those bumper stickers, I 
have plenty. [Laughter.]
    Mr. Perlmutter. So here is my story. And, no, it is not 
when I am leaving the Congress. So this is the story. So my 
bumper sticker at home, I have my political bumper sticker, 
``Perlmutter, Our Neighbor, Our Voice.'' OK? And then I have 
that bumper sticker, ``2033.'' My next-door neighbor, a rock-
red Republican, came up to me, he says, ``OK, I get the 
Perlmutter, Our Neighbor, Our Voice, are you running for 
President in 2033?'' [Laughter.]
    I said, no, it is not even a presidential year, that is 
when we are going to get our astronauts to Mars. And this 
committee is key to that mission, there is no ifs, ands, or 
buts about it. The lead time is substantial, so that we can get 
as many things answered as possible before those orbits align 
at a time for getting our astronauts to the planet.
    And with that, I yield to any questions. But obviously we 
have talked a lot about this in our committee, Science, Space 
and Technology, and NASA has been there to testify a number of 
times, as has the administrator.
    [The prepared statement Mr. Perlmutter follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      
    Mr. Serrano. Well, we thank you for your presentation, it 
was a very thorough one, and this is a very seriously ongoing 
conversation in this committee and in other places throughout 
the Congress. Thank you so much.
    Mr. Perlmutter. Thank you for your time.
    Mr. Serrano. Mr. Aderholt?
    Mr. Aderholt. I just want to echo again the chairman's 
comments. And space exploration, as he knows, is important to 
this committee and important to me and we have worked very 
closely. So, thank you for your work on this and we continue to 
look forward to working with you, and so we can do space 
exploration for this country.
    So, thanks so much.
    Mr. Cartwright. Other than being relieved that you are not 
running for President, did your neighbor have any reaction to 
this bumper sticker?
    Mr. Perlmutter. Yes. He said, ``Can you guys really think 
that far out? Can you come up with programs that really take 
that long a time to put together?'' And I said absolutely we 
can. You know, you see a lot of the clashes from day to day, 
but when the Congress sets its mind on something and there is 
this desire to do something bigger than any one of us or all of 
us put together, we can do it. And he actually was pretty 
impressed. Now, you know what, now the responsibility is on 
your committee to keep him impressed. I think it is something 
that ties all Americans together, and young and old. The 
aspirational/inspirational element to something like this, it 
is so much bigger than one administration or another.
    So, Mr. Cartwright, yes, he was--he actually was excited 
about it.
    Mr. Cartwright. It does bring us together, doesn't it?
    Mr. Perlmutter. I think it does and I think it will. So I 
thank you all for your time.
    Mr. Serrano. The subcommittee will note that Mr. Perlmutter 
did not tell us if he was impressed with his reelection bumper 
sticker. [Laughter.]
    Mr. Perlmutter. I don't think so. Anyway, thank you.
    Mr. Serrano. Thank you.
    Representative Jenniffer Gonzalez-Colon.

STATEMENT OF HON. JENNIFFER GONZALEZ-COLON, A REPRESENTATIVE IN 
           CONGRESS FROM THE TERRITORY OF PUERTO RICO

    Miss Gonzalez-Colon. Thank you, Mr. Chairman, Ranking 
Member. And I will just take that note on the 2033, just to 
remind the committee that this subcommittee got jurisdiction 
under the Arecibo Observatory in Puerto Rico. So I ask the 
subcommittee to provide robust funding to the National Science 
Foundation, as well as NASA programs to support its operation, 
and include language requiring the sustained Federal support 
for the facility as well, and that may also help as the 
greatest telescope in America.
    First of all, thank you again to the committee for having 
me here and providing me the opportunity to bring the issues 
that for Puerto Rico are important in this fiscal year. In that 
sense, Puerto Rico and the U.S. Virgin Islands--our Nation's 
Caribbean border--continue to face high levels of violent 
crime. In that sense, I respectfully urge the subcommittee to 
include language, just like you did last year, directing the 
U.S. Department of Justice to prioritize law enforcement 
personnel and resources in the U.S. Caribbean, in particular a 
focus on initiatives to reduce drug-related crime.
    In order to ensure these efforts in making them successful, 
I am requesting robust funding for the DOJ components that have 
been on the front lines, fighting crime in Puerto Rico. I also 
ask this subcommittee to provide the highest possible level of 
funding for state and local law enforcement assistance 
programs. In particular, the Byrne Program, the COPS Hiring 
Program, the Project Safe Neighborhood Program, the Body Worn 
Camera and Bulletproof Vest Partnership Programs, and the 
Violence Against Women Act Programs.
    This committee's also support is important and crucial to 
ensure U.S. Department of Commerce treats Puerto Rico equally 
under its statistical programs in fiscal year 2021. The island 
is excluded from several Federal surveys, which hampers efforts 
to evaluate our economy and our population needs. In that 
sense, I request that you appropriate the Bureau of Economic 
Analysis' budget request of $111 million, which includes 
funding to support the agency's ongoing efforts to produce 
annual GDP statistics for Puerto Rico.
    I note that the Joint Explanatory Statement accompanying 
the Consolidated Appropriations Act in 2020 required the U.S. 
Census Bureau to submit a report containing an overall cost 
estimate and implementation plan for Puerto Rico's inclusion in 
additional surveys for which we are currently excluded. Please 
evaluate this document and provide the necessary funding for 
fiscal year 2021 to ensure the Census can begin working on 
including the island under these data products.
    I also ask this committee to maintain the language 
requiring the Census Bureau data sources for the Electronic 
Export Information requirement. Right now, they are working 
with the government of Puerto Rico to make that happen, as you 
suggested in the last report. So I strongly believe this 
requirement is a burden on interstate commerce and thus hampers 
efforts to grow our Island's economy. Moreover, it gives the 
wrong impression that Puerto Rico is a foreign jurisdiction, 
hampering our imports from the States, especially when EEI 
filings are not required for shipments between several states 
in the Nation.
    I also request funding for NOAA programs particularly 
important for Puerto Rico. The Coral Reef Conservation Program; 
Integrated Ocean Observing System, which supports the Caribbean 
Regional Association for Coastal Ocean Observing; the National 
Sea Grant College Program; the National Estuarine Research 
Reserve System, which supports the Jobos Bay National Estuarine 
Reserve on the southern coast of the Island; and the Coastal 
Zone Management Grants.
    This request also for NOAA and their Tsunami Warning 
Program is important during hurricane season as well. Its 
National Tsunami Hazard Mitigation Program, which provides 
funding for the Puerto Rico Seismic Network, to improve 
community preparedness and education of tsunami threats across 
the Island.
    And, having said that, I just want to conclude saying thank 
you, Chairman Serrano, for your leadership in the committee and 
the support of Puerto Rico all the time you have been here in 
this committee and in Congress, including your longstanding 
advocacy for the Island's decolonization efforts to bring 
equality to 3.2 million American citizens on the Island.
    I thank you, all of you, for your consideration for this 
request and of course for the opportunity to testify.
    [The prepared statement of Miss Gonzalez-Colon follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
    Mr. Serrano. Thank you so much. Thank you for your 
comprehensive statement and thank you for being with us today.
    Mr. Aderholt?
    Mr. Aderholt. Let me just again say thank you for being 
here and for your comments. And, as I have said before, this is 
helpful to us to sort of know what issues that we need to pay 
attention to. So these issues that you brought up regarding the 
region that you represent and Puerto Rico, inclusion in these 
Federal funds, thanks for bringing it to our attention. So we 
look forward to working with you.
    Ms. Gonzalez-Colon. Thank you.
    Mr. Serrano. Thank you.
    Mr. Kennedy?

 STATEMENT OF HON. JOSEPH P. KENNEDY III, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Kennedy. Thank you, Mr. Chairman, and I want to thank 
the ranking member, Mr. Aderholt, for convening this hearing, 
for listening to Members, and for all of the work you and your 
staff are doing to dedicate funding to so many critical 
programs. Mr. Cartwright, thank you very much for being here as 
well.
    It wasn't all that long ago that I found myself standing 
next to clients as a legal aid volunteer in Boston's housing 
courts, helping people desperate to keep a roof over their 
family's head, navigate a complex web of laws and codes that I, 
too, struggled to comprehend.
    Through their eyes, I saw our systems failing. A justice 
system that wasn't providing anything close to equal justice. A 
housing system that promised tenants and homeowners certain 
rights, but only if they had access and resources to pursue 
those remedies. And an economic system tilted towards those who 
are already powerful.
    From housing to health care to domestic violence and to 
sexual assault, to employment, to recovering from a natural 
disaster, lack of legal representation can trigger a cascade of 
consequences that leaves our neighbors vulnerable to 
bankruptcy, unemployment, homelessness, incarceration, and even 
the loss of life.
    Nationwide, 90 percent of landlords in eviction lawsuits 
have legal representation, only about 10 percent of their 
tenants do. Eighty six percent of low-income people involved in 
civil legal proceedings receive insufficient help or none at 
all. Nearly three quarters of low-income households encountered 
at least one civil legal problem in the past year.
    Low-income Americans will ask for help from local legal aid 
organizations nearly 2 million times over the course of a given 
year and, because of a lack of funding, they will only received 
limited or no help more than half that time. But when we make 
good on our promise of equal justice, the results are 
undeniable.
    Every year, organizations receiving funding from the Legal 
Services Corporation support nearly 100,000 veterans and their 
families. In 2019, LSC released an extensive report showing how 
critical legal aid is in our efforts to combat an opioid 
epidemic. Studies in Manhattan have shown that legal counsel 
for tenants led to a 77 percent decrease in warrants issued for 
evictions.
    In rural areas, in urban settings, in the wake of natural 
disasters, in domestic violence proceedings, in veterans' 
affairs, in health care disputes, and in housing courts, every 
single day underpaid lawyers and volunteers are working for 
underfunded organizations and are desperately trying to make 
good on this Nation's promise of equal justice because of what 
we have failed to do.
    We are here today to ask that Congress provide robust 
funding for LSC, because we can't afford not to. But we should 
also make clear that our work isn't finished with one 
appropriations bill. We have a long way to go and I look 
forward to working with everyone in this room to help us get 
there.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Kennedy follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    
    Mr. Serrano. Thank you. This committee gave quite robust 
funding last year, this current year, to Legal Services 
Corporation. Again, we are not making any commitments. It is an 
account that has-- a program that has a lot of support in the 
Congress and on both sides of the aisle. So we thank you for 
your testimony.
    Mr. Kennedy. Thank you, Mr. Chairman.
    Mr. Aderholt. Thank you, Congressman Kennedy, for your 
comments here. This has been an issue that I have followed and 
I have a lot of folks from my constituency in the State of 
Alabama to come up to also talk about the importance of the 
issues here regarding the Legal Services Corporation. So, no 
doubt, it serves a role. I think your examples here are a good 
example of that.
    So we look forward to working with you and seeing how we 
can make the funding as robust as possible, and thanks for your 
testimony.
    Mr. Kennedy. Thank you very much, Mr. Ranking Member. I am 
grateful for it. And Mr. Cartwright, I know was a member of the 
bar as well, I know it is an issue close to your heart. So 
thank you for your support.
    Mr. Cartwright. I wish to associate myself with each and 
every one of your remarks, Mr. Kennedy.
    Mr. Kennedy. Thank you. Thank you all, I'm grateful.
    Mr. Serrano. Thank you, Mr. Kennedy.
    Mr. Kennedy. Thank you.
    Mr. Serrano. All right. Representative Gonzalez.

    STATEMENT OF HON. ANTHONY GONZALEZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Gonzalez. Chairman Serrano, Ranking Member Aderholt, 
and members of the subcommittee, thank you for the opportunity 
to speak today about several issues that are of vital 
importance to my community in Northeast Ohio.
    The first issue I would like to discuss is encouraging the 
committee to fully fund initiatives that combat child 
exploitation. Last year, the New York Times published an 
investigative report detailing the explosion of child sexual 
abuse material that is online. In 2019, technology companies 
reported over 69 million images and videos depicting abuse.
    While law enforcement agencies have expressed concerns 
about being understaffed and underfunded, evolving technologies 
have provided new tools to shield predators such as encryption 
techniques and anonymous platforms like the dark web. Law 
enforcement must have access to updated technology and adequate 
staffing resources to address this increasing criminal 
activity.
    I want to thank the committee for its leadership the last 
several years to increase funding in this area. It is clear, 
though, that this crisis is at a breaking point. I request the 
committee reaffirm Congress' commitment to combating child 
exploitation as a law enforcement priority by increasing 
funding for Missing and Exploited Children programs to $105 
million in fiscal year 2021.
    One of the programs that would benefit from this funding is 
the Internet Crimes Against Children Task Force, or ICAC. ICACs 
are located throughout the country and tasked with responding 
to reports of child exploitation within their jurisdictions. 
Congress has continuously underfunded the ICAC program, 
appropriating around half of the amount authorized. These law 
enforcement officers are facing mentally exhausting conditions 
and limited resources, and they need congressional support.
    The second program that needs this funding is the National 
Center for Missing and Exploited Children, or NCMEC. NCMEC is 
the clearinghouse that intakes reports from tech companies 
about child exploitation on their platforms and directs the 
reports to the appropriate law enforcement jurisdiction. It is 
the unfortunate truth that the volume of reports coming into 
NCMEC is so big that they do not have the resources to address 
them all-- not even close, actually. Increasing funding for the 
Missing and Exploited Children programs will help to adequately 
resource ICAC and NCMEC to effectively combat the spread of 
online child exploitation.
    The second initiative I would like to advocate for today is 
the STOP School Violence Grant Program that is essential to the 
safety of America's students. Every year, there are thousands 
of instances of suicides, assaults, bullying, and homicides 
that affect schools across the country. Research shows that 
students often display warning signs before taking any action, 
including telling someone of their plans. STOP School Violence 
Grants are used to implement evidence-based prevention program 
training to give our students, teachers, and staff the tools to 
recognize these warning signs and take proactive steps towards 
improving the physical and mental well-being of our students.
    I appreciate the opportunity to make a statement today and 
look forward to working with the committee to fund efforts that 
will keep our communities safe. Thank you.
    [The prepared statement of Mr. Gonzalez follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
    Mr. Serrano. We thank you for your testimony on these very 
important issues and for your support, advocacy, and we will 
certainly take everything into consideration as we go along.
    Mr. Aderholt?
    Mr. Aderholt. Yes, I concur, Mr. Chairman. Again, thank 
you, Congressman, for your comments on this and your commitment 
to these issues that I think we would be very much in 
agreement. We certainly look forward to working with you to see 
how we can appropriately fund all these programs and thanks for 
your testimony.
    Mr. Gonzalez. Thank you.
    Mr. Serrano. Thank you. I'm sorry, go ahead.
    Mr. Cartwright. Congressman Gonzalez, welcome to CJS, and 
thank you for your advocacy for funding for Missing and 
Exploited Children's programs. I can't think of many more 
important things that we have to do here on this subcommittee. 
I do look forward to working with my colleague from Ohio, 
although I must say I begrudge you every single yard you gained 
against Penn State.
    Mr. Gonzalez. I'm sorry. [Laughter.]
    Mr. Cartwright. Apology accepted.
    Sticking up for missing and exploited children is something 
that doesn't require any nudging for Democrats and Republicans 
to see eye-to-eye on and work together to fight against. I 
introduced the Amy, Vicky, and Andy Child Pornography Victim 
Assistance Act in 2014 for that very reason. We got solid 
bipartisan support for it and it passed into law in 2018. And 
it cured really a defect in the law that was preventing 
remedies, civil remedies for victims of child pornography.
    Look, we owe it to our children to provide the resources 
necessary to fight these forces of evil, is what they are, 
protect them against these threats. And we owe it to our law 
enforcement professionals to give them the resources they need 
to combat this wickedness.
    So I am here to say, thank you for appearing before us, and 
I do have some questions, Congressman. Have you been hearing 
from law enforcement officers about the scale of this crisis 
and, if so, have they discussed how the lack of resources 
hampers them?
    Mr. Gonzalez. Yes. Thank you for your question.
    So I visited with the FBI Regional Field Office in 
Cleveland, and then have also been in contact with the Ohio 
ICACs. And so the answer to your question is, yes. The lack of 
funding, it has two effects. One, it means that they simply 
cannot get to the prosecutions for a whole host of exploitive 
images, and so what they have to do is they prioritize based on 
the age of the child. So as young as infants are being abused 
and being pursued online, which is disgusting. And, as a 
result, there is sort of a segment of the population once you 
get over a certain age where, because the resources are so 
slim, they can't even get to it because they are prioritizing 
the youngest children.
    Mr. Cartwright. Well, how about suggestions? Do you have 
any suggestions about the greatest need and where we can best 
give our law enforcement officers more resources in their 
efforts?
    Mr. Gonzalez. Absolutely. So we are advocating for overall 
funding of all the programs to $105 million, and I see kind of 
two areas. One is staffing, they are absolutely understaffed. 
If you talk to the ICACs or NCMEC, you will find out that there 
is just a staffing issue, we don't have enough people, but also 
the technology. A lot of the images are trafficked through the 
dark web using non-traceable weapons, essentially. And so the 
technology needs to be upgraded as well, because if we have 
better technology, then we can go pursue the bad actors where 
they are, quote-unquote, ``living,'' which is on the dark web.
    Mr. Cartwright. Thank you. And, finally, any other issues 
that you would like to highlight regarding funding or the lack 
thereof for the Missing and Exploited Children's programs?
    Mr. Gonzalez. You know, what I really want to do is I want 
to highlight the great work that NCMEC and the ICACs are doing. 
These are wonderful people who have a very, very difficult, 
arguably impossible job. It is them who are on the front lines 
who have to look at these images and process them, and then put 
the investigations in place and go pursue the criminals. They 
are coordinating as best as humanly possible, but my general 
perspective is, given the lack of funding, we are asking them 
to do an impossible job. And as you said and as you fought for 
for years on this issue, it is something we have to do, it is 
an imperative of this Congress. So, thank you.
    Mr. Cartwright. Well said, well said. Thank you.
    And I yield back, Mr. Chairman.
    Mr. Serrano. Thank you, sir.
    Mr. Gonzalez. Thank you, sir.
    Mr. Serrano. Mr. Schneider, Representative Brad Schneider, 
patiently waiting.

STATEMENT OF HON. BRADLEY SCOTT SCHNEIDER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Schneider. Well, thank you, Chairman Serrano, and to 
everyone here. I appreciate the opportunity to be before you to 
testify.
    Zion, Illinois in my district is one of the many 
communities around the country shouldering the burden of 
decommissioned nuclear power plants. Only a few hundred yards 
from the shores of Lake Michigan sits more than 2 million 
pounds of spent nuclear fuel that serves as physical testament 
to the legacy of nuclear power in our community.
    Storing this spent nuclear waste without compensation is 
just one component of the legacy Zion must bear from the 
nuclear power plant that once sat on its border. The more 
pervasive impact is the ongoing stunting of the local economy.
    Zion lost its biggest source of tax revenue when the power 
plant closed and now has some of the highest, if not the 
highest property taxes in the entire country. As a result, home 
ownership is limited and companies are wary of moving into a 
community with such a significant tax burden. That is why I am 
working to pass the STRANDED Act, which would help communities 
like Zion.
    But in the meantime, this committee made a significant 
contribution towards helping nuclear closure communities last 
fiscal year. For the first time, in fiscal year 2020, funding 
for the Economic Development Administration included $15 
million to boost economic development in nuclear closure 
communities.
    I know that Zion is working to put forward a competitive 
application, but we also know this funding pales in the 
comparison to the need these communities actually face, and we 
know that more communities will face decommissioning in the 
coming decade. It is our duty to help communities like Zion, 
who for too long have shouldered the legacy of nuclear power on 
their own.
    The EDA funding you have included last fiscal year 
represents a vital resource for these communities to plan the 
next chapter of economic growth, that is why I am strongly 
urging this subcommittee to once again fund this critical 
program. I hope you include $15 million, the same level as 
fiscal year 2020, to help the nuclear closure communities 
throughout our country.
    With that, I thank you and yield back.
    [The prepared statement of Mr. Schneider follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
    Mr. Serrano. Thank you. Thank you for your testimony, I 
really appreciate it.
    Mr. Aderholt?
    Mr. Aderholt. Thanks for your testimony and look forward to 
working with you.
    Mr. Schneider. Great. Thanks so much.
    Mr. Serrano. Well, we thank everyone who has been with us 
today, those who are here and those who are gone.
    Thank you, Mr. Aderholt. And the subcommittee is adjourned.
    [Material submitted for inclusion in the record follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      


PUBLIC TESTIMONY SUBMITTED FOR THE RECORD
               
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                
               


                                            Tuesday, March 10, 2020

      U.S. DEPARTMENT OF COMMERCE FISCAL YEAR 2021 BUDGET REQUEST

                                WITNESS

HON. WILBUR ROSS, SECRETARY
    Mr. Serrano. The subcommittee will come to order.
    Today we welcome back the Commerce Secretary, Wilbur Ross, 
before the subcommittee to testify about the Commerce 
Department's fiscal year 2021 budget.
    As we all remember, the Secretary decided not to come and 
visit with us last year. So I am glad that there has been a 
change of heart. Despite your absence, we submitted questions 
for the record, which you returned to us just 4 days ago. This 
disregard for the role of Congress not only offends this 
committee but diminishes our ability to do our job.
    I am glad you are here today, and I hope that your presence 
here is an indication that the Department is turning a new 
page.
    The Department, through the Census Bureau, is in the midst 
of administering the 2020 Census with most people receiving 
their first outreach this week. I am sure all of us here want a 
fair and accurate count and will likely have numerous questions 
about how things are going.
    The impact of the coronavirus outbreak on your plans and 
the ongoing efforts--effects of the fight over the citizenship 
question. We will also want to hear more about the 
administrative data collection process, your commitment to the 
privacy, and the Bureau's plans for this information.
    I would be remiss if I did not mention the inadequacy of 
the Department's budget request in a number of important areas 
that have bipartisan support. I think that many of the proposed 
cuts in the Commerce Department's request show a disregard for 
the tens of millions of Americans and Americans' businesses who 
are helped by these programs. Your request once again seeks to 
eliminate major economic development programs, like the 
Economic Development Administration and the Minority Business 
Development Agency. These agencies promote economic development 
in underserved areas and communities, including in many areas 
that voted for the President 4 years ago.
    The President's budget proposal also undermines Americans' 
manufacturing by once again proposing to eliminate the 
Manufacturing Extension Partnership program. In NOAA, the 
administration has proposed eliminating at least 24 programs 
and includes significant budgets cuts for programs focused on 
climate change, research, frontline response to environmental 
issues at the State or local levels and educating the next 
generation of STEM students.
    These proposals undermine the future of our Nation's 
scientific leadership and our ability to respond 
comprehensively to global climate change, and that is 
unacceptable.
    In many cases, the proposed cuts are ones that Congress has 
rejected in the past. We expect to have a tight budget 
environment for domestic nondefense discretionary bills this 
year, and given the holes that this subcommittee will need to 
fill, it will be hard for us to talk of major budget 
investments requested by the Department.
    I look forward to talking with you more about these issues 
today. I look forward to your testimony. I am glad that you are 
here.
    With that, let me turn to Ranking Member Aderholt for his 
opening statement.
    Mr. Aderholt. I thank you for yielding, Mr. Chairman, and 
thanks for organizing this important hearing today, and it is 
good to have the Secretary with us to learn more about the 
resources that are needed at the Department of Commerce.
    So, welcome, Secretary Ross. We are honored to have you 
here today, and I wholeheartedly support the Department's 
efforts to promote job creation and economic competitiveness 
and to protect our Nation's innovators and manufacturers from 
unfair trade practices in particular.
    This administration has stood up more for manufacturing 
jobs in Alabama and across the country than any other. So I 
thank you, Secretary Ross, for your work on that. I thank 
President Trump for his commitment to that for making American 
industry a very top priority.
    Beyond fostering jobs and opportunities for the people of 
north Alabama, the area that I represent, and across literally 
across the Nation, the Department of Commerce also oversees a 
variety of critical programs that are so important to this 
Nation.
    For example, the Commerce Department administers a vital 
system of export controls that restrict the export of items 
that could have a detrimental impact on the national security 
of the United States. In addition, the Department's National 
Institute of Standards and Technology works to advance 
measurement science standards and technology in ways that 
enhance economic security and improve our quality of life.
    Further, as this committee is well aware, the Department of 
Commerce leads efforts to improve the quality and the 
efficiency of this Decennial Census and other important 
surveys. We are actually watching with great anticipation right 
now as the 2020 Census gets kicked off later this month.
    The fiscal year 2021 budget shifts our focus on the Census 
Bureau's post-enumeration operations, including the release of 
data for apportionment and for redistricting purposes. I will 
note that many in Alabama and other States are concerned about 
whether the surge in illegal immigration after the last Census, 
combined with the policies of sanctuary cities, will cause some 
of the States that actually help enforce our country's 
immigration laws to actually lose a congressional seat, as well 
as electoral vote in the presidential election process.
    It should be noted that this budget also supports critical 
activities for NOAA, including the provision of daily weather 
forecasts, severe storm warnings, climate monitoring, along 
with efforts to support fisheries and foster marine commerce.
    And I would remiss if I didn't mention that more Americans 
perish from tornadoes in the Southeast than anywhere else in 
the country. So much the time we think of other parts, 
especially the Midwest, but there is more Americans have 
actually died from tornadoes in the Southeast.
    As we debate the budget priorities for fiscal year 2021, we 
remember that there was at least 24, if not more, Americans' 
lives that were lost over the past few days in tornadoes that 
occurred in Tennessee, and then we also remember the 23 
Americans that lost their lives just a year ago in Alabama from 
tornadoes. NOAA's VORTEX Southeast program is central to 
understanding and forecasting tornadoes in the Southeast and 
how residents respond to these warnings.
    I look forward to discussing many important matters with 
you, Mr. Secretary. I will have some questions about trade 
enforcement, weather forecasting, cybersecurity, and the 
quantum computing environment and space commerce among many 
other things that will be brought up.
    So, again, I thank you, Mr. Chairman, for yielding.
    And I thank you, Mr. Secretary, for being here this 
morning.
    And I yield back.
    Mr. Serrano. I thank you, Mr. Aderholt.
    Mr. Secretary, you are now recognized to give your opening 
statement. Please try to limit your remarks to 5 minutes, and 
we will ensure that your full statement appears in the record.

 STATEMENT OF HON. WILBUR ROSS, SECRETARY, U.S. DEPARTMENT OF 
                            COMMERCE

    Secretary Ross. I thank you, Mr. Chairman.
    Chairman Serrano, Ranking Member Aderholt, and members of 
the House Appropriations Subcommittee, I thank you for this 
opportunity to discuss President Trump's fiscal year 2021 
budget request for the U.S. Department of Commerce. It is a 
privilege to appear before you today.
    We are committed to working with you to grow the U.S. 
economy, defend our industries from unfair foreign competition, 
and protect our national security.
    The 2021 budget for the Commerce Department achieves these 
goals by providing the resources needed for the successful 
completion of the 2020 Decennial Census by ensuring American 
leadership in space, by bolstering trade promotion, trade 
enforcement, and export controls, by providing for satellite 
acquisition and vessel recapitalization for the National 
Oceanic and Atmospheric Administration, by generating the 
timely economic data needed by businesses to analyze markets, 
invest in communities, and hire American workers, and by 
supporting research, development, invention, and standards in 
leading-edge industries and technologies.
    In the short time allotted to my opening statement, I will 
discuss three priorities for next year: first, the Census 
Bureau; then space; and then trade.
    The request of Census Bureau for fiscal year 2021 is $1.6 
billion. I am pleased to report that, with your support, we are 
on budget, on schedule, and on track to accomplish the 2020 
Decennial Census. Next year's budget supports the important 
post-enumeration operations for determining apportionment and 
the allocation of Federal funding.
    The Commerce Department's Office of Space Commerce is the 
second priority initiative that urgently needs funding. Our 
request of $15 million advances U.S. leadership in space as we 
shift responsibility for tracking tens of thousands, in fact, 
hundreds of thousands, of pieces of space debris from the 
Department of Defense to the Department of Commerce. The 
exponential growth of commercial satellites is increasing 
geometrically the risk of catastrophic collisions that could 
generate additional debris and threaten critical space assets. 
The task of tracking this debris and providing adequate 
warnings to space operators was set forth in Space Policy 
Directive No. 3.
    Finally, the budget request $474.4 million for the 
International Trade Administration, the ITA, enabling U.S. 
companies and their domestic employees to compete on a level 
international playing field. We seek an additional $5 million 
for ITA's Enforcement and Compliance division to keep up with 
the increasing number of anti-dumping and countervailing duty 
cases. Funding also would enable us to conduct additional 
reviews of foreign acquisitions of U.S. companies as required 
by the Foreign Investment Risk Review Modernization Act, 
FIRRMA.
    In my time with you today, we can discuss the Commerce 
Department's budget request for all of the bureaus, including 
NOAA, NIST, the Bureau of Industry and Security, U.S. Patent 
and Trademark Office, and other agencies between--within the 
Department.
    On a personal note, Chairman Serrano, congratulations on 
your honorable service here in Congress and all you have done 
for your constituents and for the American people. I truly wish 
you well in your retirement from this Chamber.
    Now, on behalf of the Department, I will try my best to 
answer your questions.
    [The prepared statement of Secretary Ross follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
    Mr. Serrano. I thank you for your comments, and I will miss 
this place, but it has been a long time: 30 years here and 16 
in the New York State Assembly; 46 years is a long time, and 
maybe it is time to go watch a few Yankee games. It is down the 
block from where I live, you know. But thank you for your 
comments. I appreciate them.
    Mr. Secretary, as more cases of the virus make the 
headlines, I am concerned about how the Census is planning to 
address the potential impact this will have not only on 
response but also on the number of partners and enumerators who 
are willing to ensure an accurate count. What can you tell us 
about the Census Bureau's plans to deal with the coronavirus, 
and do you anticipate that you will spend any real contingency 
funds for this purpose?
    Secretary Ross. Yes, sir.
    Well, first of all, because we added internet responses as 
an alternative this year--and we, in fact, expect a very large 
proportion of the responses to be by internet--so fortunately 
that doesn't involve any physical contact with people and, 
therefore, is in and of itself an advantage. Second, people can 
also respond by phone. Again, it doesn't involve physical 
contact. And they still have the original ability to respond by 
mail or in paper, and, as far as I know, the postal system has 
not posed any moratorium on postal service.
    In terms of the Department itself, we have a fusion center 
set up at Census headquarters here, and that involves a group 
of people that are on 24/7 to alert senior management to any 
contingencies that develop, such as an outbreak of coronavirus 
in a particular location, such as a change in health warning 
from the Federal Government.
    So we are very well-equipped to--we have a quick response 
team. We have already organized the response team, and, 
therefore, I believe we have done as much as we can to be ready 
for whatever contingencies come up, whether coronavirus, 
whether weather, whether whatever.
    Mr. Serrano. In the information and the comments that I am 
sure the Department gets from the people on the field who are 
going to conduct the Census, people that have been placed there 
already to do the work, are they showing any concern about how 
the virus might affect?
    Secretary Ross. Well, we have only begun the mailing a 
couple of days ago. I am happy to say we already have gotten 
some internet responses. So that is the only direct thing that 
we are able to comment on there.
    Everybody is obviously concerned with all the media 
coverage. I don't think there is anybody who lacks concern 
about the potential for it. So we will just have to play it by 
ear. We are ready to make responses, and we will deal with the 
situation as it evolves.
    Mr. Serrano. I thank you, Mr. Secretary.
    Your budget for NOAA proposes to consolidate the National 
Centers for Environmental Prediction, Climate Prediction, and 
Weather Prediction in your congressional justification. You 
know that it will limit some of NOAA's products and services, 
which have supported national security planning and execution 
for a number of things, including pandemic health planning.
    Do you stand by this proposed decrease in operational 
capacity in light of the coronavirus?
    Secretary Ross. Well, in terms of the Census, we have a $2 
billion contingency fund available to us. As of the moment, we 
don't think there is any particular necessity to use it. What 
we are doing to try to keep the workplace safe is encouraging 
employees to do four things: one, practice good hygiene, stop 
handshaking, clean hands at the door, create habits and 
reminders to avoid touching faces, disinfect surfaces like 
doorknobs, increase ventilation, be careful with meetings and 
travel, limit food sharing, strengthen health screening, and 
stay home if they feel sick or if they have a sick member in 
their home. So those are the very specific actions that we have 
already taken within the Census.
    Mr. Serrano. I appreciate that.
    But within NOAA, I had asked you just to comment on what 
your cuts would do for the budget NOAA, which proposes to 
consolidate the centers. Can you tell us anything about that?
    Secretary Ross. I am sorry. I have a little trouble hearing 
you, sir.
    I believe you were asking about the regional coastal 
resilience program.
    Mr. Serrano. The consolidation of Climate Prediction 
Centers, Weather Prediction Center functions at NOAA, as well 
as pandemic health planning.
    Secretary Ross. Yes. Those were moves initiated by the 
career staff, and their purpose is to increase the efficiency 
of the operation. They don't believe that there will be any 
material adverse consequence from doing so.
    Mr. Serrano. I thank you. We will revisit that, I am sure, 
during the year.
    I am concerned with news reports that the Department of 
Homeland Security is deploying elite tactical teams to cities, 
including New York, with little to no justification that would 
potentially suppress response rates. The Commerce Department 
has a responsibility to ensure that the Census Bureau meets its 
constitutional mandate to enumerate all persons.
    Did you communicate concerns to the DHS Acting Secretary 
about the potential impact to the Census operation and, if not, 
can you commit today that you will ask for a delay in this 
specific operation until the conclusion of the 2020 Census? Now 
you know that, in one way or another, we have been very public 
about the fact that anything that may give people the feeling 
that they are being chased or looked after or information is 
being used for other purposes will only hurt the Census count. 
And so these tactical teams, these elite teams being sent into 
the cities is concerning a lot of people.
    Secretary Ross. Well, the Census is not an enforcement 
agency. We do not give the schedule of our enumerators to 
Homeland Security, to ICE, or to anyone else. So there is no 
danger that enforcement officials will be following the Census 
taker into a home. Second, all Census employees take a lifetime 
oath not to disclose any individual personal information to 
anybody. It is not permitted to be used for any purpose other 
than enumeration, and if anyone were to violate, it is 
punishable by a jail sentence and a very large fine. We also 
have done the best can we can with cybersecurity. The data are 
encrypted from the moment it comes into our possession, while 
it is being transmitted, and when it is at rest in the 
computers.
    Mr. Serrano. Let me finish this up by asking you do you 
have any idea as to why these teams are being deployed, 
especially at this particular time? You see, I can't emphasize 
enough the need to have the Census count be one that is free of 
any outside interference. And when you send people in to look 
for certain things in neighborhoods, it just has a chilling 
effect on people's ability to allow themselves to be counted.
    Secretary Ross. The Census employees are very clearly 
identified as such. They have a badge. They have a physical ID. 
So there should not be any confusion in the part of the public 
as to whether it is a Census employee or an ICE person on the 
scene.
    Second, I mentioned to you the precautions that we already 
do take.
    And, third, we are running much more in the way of 
advertising, explaining why the Census is safe, why the data 
are protected, and why we do--we are not asking the citizenship 
question and are only asking basically nine very 
straightforward easy-to-answer questions. So we have spent a 
lot more on advertising than ever before. We have a lot more 
partnerships with community institutions and national 
institutions than ever before. We are doing a lot more ethnic 
advertising to those segments of the population that might be 
particularly concerned about enforcement activities. So we are 
doing the best we can with that.
    We also have established on our website a rumors section 
where we will try to deal with anything we have found that 
comes out that is a fraudulent rumor that might give people 
cause for alarm.
    And, finally, we have engaged very constructively with 
Facebook, Twitter, and all the other social media organizations 
to have them be very scrupulous about taking down misleading 
ads or blogs that might come in.
    Mr. Serrano. I thank you.
    Let me just close by saying that I wish the Commerce 
Department would at some time ask the Justice Department just 
why they are coming in at this particular time.
    Mr. Aderholt.
    Mr. Aderholt. I thank you, Mr. Chairman.
    Mr. Secretary, I commend the Department for creating a new 
section 232 exclusion portal that handles the vast amount of 
232 exclusion requests, and I know you have received quite a 
bit of good feedback on that effort there.
    However, some users of this new portal are reporting that 
it is more difficult for users to download a request objection 
or rebuttal submission. And even with the new portal, we are 
hearing reports that it is still very difficult to track and to 
analyze aggregated requests by product, volume, country of 
origin, alloy, and other relevant factors. Furthermore, users 
report being unable to assess within the portal whether granted 
exclusion requests have been utilized and to what extent.
    My question that I would ask to you is: Does the Department 
intend to feature such data, including as a filtering option, 
and does Commerce have a timeline for improving the elements of 
the portal that users are finding frustrating or that are 
lacking in some ways?
    Secretary Ross. Well, we have been simplifying things, and 
we have been accelerating the response time. We have achieved a 
79-percent decrease in initial posting times and 63-percent 
decrease in decision times under the portal regime.
    On average, the Department now posts requests within 3 days 
of submission and renders decisions on those cases that have no 
objections within 59 days of submission. That is about the 
fastest that we can do, sir, because there is statutory periods 
for notifications.
    Mr. Aderholt. But regarding these areas that people are 
finding that are objectionable, the frustrating, and the 
lacking, is there--are you-all looking into that to how you-all 
can improve that?
    Secretary Ross. We are, and we have phone number for people 
to call and internet place for them to notify if they have 
questions about terms that they don't understand or other 
guidance that they may need. And all ex parte communiques are 
posted on the website. There are no concealed ex parte 
communications.
    Mr. Aderholt. Let me ask you about working to mitigate 
enforcement circumvention, that is, product modification, 
transshipment. Given the significant costs the Department 
incurs, investigating these trade remedy cases, how are you 
working with the enforcement of those things?
    Secretary Ross. Well, we recently--at our suggestion, the 
President posted another executive order that deals with what 
we call derivative products. Those are ones that are largely 
just the raw material with a little tiny modification that have 
increased in quantity and, therefore, represent a form of 
circumvention of the original 232. So that has dealt with quite 
a few of those items. And we keep screening the monthly data, 
both in steel and aluminum, in search of any more.
    Plus, very recently the aluminum industry filed with us a 
petition covering another 22 items that they feel may be 
circumventing. We are studying that very carefully, and if 
warranted, we will self-initiate again on that.
    Mr. Aderholt. What criteria does the Department use when it 
is determining whether a case is ripe for self-initiation, as 
it did in 2017 with the common alloy aluminum sheet from China?
    Secretary Ross. Well, we are data-driven. We are fact-
driven. So, to the degree that we can gather together on our 
own or with help from industry sufficient facts to warrant 
self-initiation, we do it. We also try especially to consider 
doing it in cases where the industry is worried about 
retaliation from a foreign country, where they may have some 
complaints, but also have some operating facilities. So we are 
very interested in self-initiation because it speeds up the 
process, it lowers the cost to the American industry for 
conducting the process, and we think in general it is a very 
worthwhile activity.
    Mr. Aderholt. And can you talk a little bit about how the 
Department is seeking to make trade remedies accessible to 
petitioners who are actually small businesses?
    Secretary Ross. We hold seminars around the country. We 
have offices in many tens of American cities that try to help 
people understand both how they can export better and how they 
can protect themselves from illicit imports. That is probably 
the best mechanism we have for dealing with the small business 
community.
    Mr. Aderholt. I thank you, Mr. Chairman.
    Mr. Serrano. I thank you.
    We now welcome the chairwoman of the full committee, Mrs. 
Lowey.
    The Chairwoman. I thank you.
    And welcome. Nice to see you again. I am sorry, but I was 
dealing with the coronavirus next door. There are many----
    Secretary Ross. Oh, my goodness.
    The Chairwoman. hearings at the same time.
    Secretary Ross. Well, I hope haven't been exposed, 
Congresswoman.
    The Chairwoman [continuing]. No, I hope not, but we do have 
multiple hearings and I am glad to see you today.
    Mr. Secretary, the Republican National Committee recently 
sent mailers soliciting campaign donations that were designed 
to look like the Census form. With existing concerns around 
disinformation campaigns on social media, these kinds of 
mailers are dangerous, predatory, and exacerbate concerns with 
undercounting.
    If you could, share with me what the Census Bureau is doing 
to swiftly, directly, and effectively counter these efforts to 
ensure a complete count.
    Secretary Ross. I thank you for that question. It is a very 
relevant one.
    As you are probably aware, something like a fifth of all 
the internet users around the world are indicated to be bots. 
So it is a real problem to have extraneous material come in. So 
we have put up a rumors page on our website that counteracts 
whatever rumors we are aware of. Further, we have made 
relatively formal arrangements with the major social media 
entities--Facebook, Twitter, and the others--so that they are 
very vigilant about taking down bad material that comes up. And 
Facebook, as you probably are aware, has taken down that 
Republican National Committee message.
    The Chairwoman. Was there any, frankly, research done to 
suggest that the Republican National Committee did not do it or 
are you acknowledging they did do it?
    Secretary Ross. Well, I don't know----
    The Chairwoman. And then I would be interested no know what 
the administration is doing about that.
    Secretary Ross. Well, I have no idea whether it was a 
legitimate thing by the RNC or not. What I do know is that we 
have made a point of emphasizing in our ads and in our 
communications that we don't ask for money. We don't ask for 
people's Social Security number. We don't ask for anything like 
that, and Facebook has already taken that ad down.
    The Chairwoman. Do you have the--does the Census Bureau or 
the Department have any authority to penalize those who falsely 
present documents as a Census form?
    Secretary Ross. Last--well, present documents. If you are 
talking about social media communiques or advertisements, I 
don't think we have any legal authority to deal with them. We 
are not----
    The Chairwoman. I just want to make it clear. These were 
mailers from the Republican National Committee going directly 
to people's home.
    Secretary Ross. Right. No, I understand what the situation 
appears to be. I don't believe we have any authority over it. 
If you are aware of any statutory authority, I would love to 
hear about it.
    The Chairwoman. Well, I would like to suggest that this is 
outrageous. No one, to my knowledge, refuted the fact that the 
Republican National Committee sent these forms in. It was 
deceptive, and I would like to know what the Government of the 
United States that interfaces with the Republican National 
Committee is going to do about it because it is outrageous.
    Secretary Ross. I hear your observation.
    The Chairwoman. OK. Let me on to the next one. I am really 
concerned about the data-sharing agreements the Census Bureau 
has with multiple Federal agencies, including the Department of 
Homeland Security and the State Department. Many of these 
agreements were signed months ago. My staff has been asking for 
copies of these since at least October. My staff were only 
recently notified these agreements were posted at the end of 
February.
    Secretary Ross. Most of those agreements were not even 
entered into until February. We had to negotiate agreements 
with the various agencies, and that took quite a while to do. 
To my knowledge, we posted them as soon as we had definitive 
agreement.
    As to the nature of the sharing arrangement, it is a one-
way sharing. We get access to their data. We have no obligation 
to provide any data to them, and, indeed, we are prohibited 
from doing so. So it is a one-way arrangement that we have with 
them.
    The Chairwoman. Well, I would like more information on 
that, Mr. Secretary, because you know there would be real 
concern among those who were asked for information for the 
Census if, in fact, that information was transferred to the 
Department of Homeland Security. And I am very concerned that 
your department has delayed to get this information to my staff 
and only after it was publicly available because I personally 
was very concerned about that.
    Look, we all want to get an accurate Census, but we know 
there are concerns.
    Secretary Ross. Well, I am not aware that anyone within our 
department did anything deliberately to delay posting on the 
website the information. If they didn't respond to a direct 
request, I apologize for that. They should have. But in any 
event, as soon as we had definitive agreements, it is my 
understanding we put them on the website.
    The Chairwoman. If I can just take one more--can I ask one 
more question?
    Mr. Serrano. Sure.
    The Chairwoman. OK. Now just to pursue this issue, I 
understand the Census Bureau is producing citizenship data at 
the block level. Now this data is supposed to be anonymized to 
ensure privacy, but the data you plan to release will 
effectively show where pockets of citizens and noncitizens 
reside. Is that correct?
    Secretary Ross. That is the request that was made in the 
executive order by the President, yes, ma'am.
    The Chairwoman. Well, I thank you for that information.
    I think it is entirely inappropriate, and we will follow 
up, and I would like to have some explanations about who 
directed it. And if the President himself did, I would like a 
response. I don't expect him to come here before this committee 
at any time, but I thank you for your honesty and your 
straightforward response, and we will certainly pursue it.
    Again, the data you plan to release will show where pockets 
of citizens and noncitizens reside, and it is the President who 
has requested that data?
    Secretary Ross. Well, what we have--what we are doing is 
the following: We have not received all of the raw data from 
the Federal agencies. The passport data from the State 
Department has not yet been forthcoming. It will be within the 
next few days. The data we have received, the career personnel 
at Census are analyzing, trying to figure out what steps they 
can take with it. So we don't have a final decision yet.
    What we do feel very strongly about is we will mask the 
data that we put out, the so-called differential privacy 
activity, which essentially consists of introducing static into 
the material so that individual data would be exceedingly 
difficult, if not impossible, to track from comparing the 
Census data to other public data.
    The Chairwoman. You have been very generous, Mr. Chairman, 
with your time.
    And I would suggest that this is such a critical issue 
because the amount of money we have in New York is dependent 
on--and in other States--accurate Census data. So, if there is 
monkey business around here and if this Census data is being 
used by the Department of Homeland Security or other 
departments, this is a big problem for me and for all of us in 
the Congress. So I look forward to pursuing this and getting 
additional information.
    I thank you for your generosity.
    Secretary Ross. It will also be a big problem for anyone 
who leaks it because it is a criminal offense. It is punishable 
by multiple years in prison and by a large fine. And as I 
mentioned to Chairman Serrano before, every Census taker and me 
and everybody relative to it takes a lifetime oath not to 
divulge to anybody other than in the context of the Census 
enumeration.
    The Chairwoman. Wait a minute. Not to divulge but what to 
divulge? So it is illegal to divulge to another agency?
    Secretary Ross. We cannot divulge----
    The Chairwoman. That is what is happening.
    Secretary Ross. I said we cannot divulge individual 
personal data to anybody.
    The Chairwoman. Look, let me repeat this again, and then 
you have been very generous. I understand that this data is 
supposed to be anonymized to ensure privacy.
    Secretary Ross. Right.
    The Chairwoman. But the data you plan to release will 
effectively show where pockets of citizens and noncitizens 
reside. We can follow up when we have more time, unless you 
want to give the generosity of the chair, but that is 
information that should not be released with the data 
collection.
    Secretary Ross. I would be happy to have the Census 
professionals doing the work on differential privacy to explain 
in great detail what they are doing to try to shield individual 
data.
    The Chairwoman. I thank you very much.
    I thank you for your generosity.
    Mr. Serrano. I thank you.
    Mrs. Roby.
    Mrs. Roby. I thank you, Chairman Serrano and Ranking Member 
Aderholt.
    Mr. Secretary, I appreciate your willingness to come before 
our committee today.
    Every day emergency managers work to keep our communities 
alerted to and safe from potential threats, including severe 
weather. Many Department of Commerce programs, including 
National Weather Service websites and NWSChat are utilized by 
local and state emergency managers and television 
meteorologists to collect and distribute real-time lifesaving 
information.
    Just last week, I had the opportunity to meet and discuss 
ongoing issues with emergency managers from Alabama, and one of 
their concerns is that these programs have failed to perform 
when they are needed most because of outdated and overloaded 
information technology systems.
    And so I understand in my meeting with them that there is a 
plan for a National Weather Service integrated dissemination 
program that outlines these necessary updates that is currently 
under review by the Department of Commerce.
    So I know this is a very nuanced question, and if you don't 
have an answer for me here today, that is fine, but I wanted to 
present it here publicly to ask you if you could share more 
information with us about the Department's plan for 
improvements and if Congress can expect to see a report on this 
issue.
    Secretary Ross. Well, we are trying to deal with the 
problem of outdated and overloaded technology throughout the 
Department and, in fact, I believe throughout the Federal 
Government. The Federal Government has not been as quick as 
private sector to update technology. We have, within Commerce, 
something like 70 different systems of different vintages. So 
you can appreciate the problem of having them interact with 
each other. If there are more specific concerns you have 
relating to Census or NOAA or the others, be glad to schedule a 
briefing for you.
    Mrs. Roby. That would be great. I appreciate it.
    Online shopping has become an everyday occurrence for 
millions of Americans, myself included. No matter what type of 
product you are buying, the safety and reliability of that 
product is important. As online shopping has become more 
prominent in today's culture, the sale of counterfeit goods has 
become a growing issue around the world, and I am grateful to 
serve as the cochair of the Congressional Trademark Caucus. I 
have dedicated my efforts during my time in Congress to propose 
solutions to this pressing issue. As you know, I am an 
appropriator. I am here today. But I also wear a hat on 
Judiciary as well, and I recently joined my colleagues in 
introducing a bipartisan piece of legislation called the 
Stopping Harmful Offers on Platforms by Screening Against Fakes 
in E-Commerce Act, or the SHOP SAFE Act. The SHOP SAFE Act 
protects consumers and brands for the sale of counterfeit goods 
online and incentivizes e-commerce platforms to adopt best 
practices in order to decrease the sale of these goods.
    So my question for you, sir, is, what is the Department of 
Commerce doing to protect our communities from the sale of 
counterfeit goods online and to maintain consumers' confidence 
in e-commerce?
    Secretary Ross. Well, first of all, the USPTO, the Patent 
and Trademark Office, engages with the officials here and 
abroad to improve our domestic and foreign IP laws and 
regulation. And, in fact, we recently participated in a very 
large campaign to make sure that the new head of the WIPO, the 
global organization that deals with intellectual property, is 
someone who is appropriately sensitive to it.
    Second, the USPTO works with both domestic partners and 
countries around the world building their capacity in 
regulating intellectual property, dealing with counterfeit 
goods.
    Third, we have public outreach and education. For example, 
we actually had a video contest on the topic of consumers 
combat counterfeits with six winners ranging from age groups 
across the country. In addition, last June, we had a public 
forum with the McCarthy Institute to discuss challenges that 
brands, owners, and how public and private organizations can 
help in the fight.
    PTO has a team dedicated to China issues, which is where a 
lot of this comes from. That includes IP attaches stationed in 
three cities in China at the U.S. Embassies and at two 
consulates there. So that is another very effective activity.
    In terms of more specific things overall, in January, the 
White House released a memo on combating trafficking and 
counterfeited and pirated goods. That memo contained a number 
of recommendations for action to educate the public and combat 
the sale and proliferation of counterfeit and pirated goods.
    With respect to Commerce, we are taking action to implement 
the recommendations of this memo, and those include the USPTO 
has entered into an agreement with the National Crime 
Prevention Council to partner in a multiyear public awareness 
campaign aimed at educating the public about the dangers of 
counterfeit goods. The focus of the campaign is on educating 
teenagers, tweens, and their parents about the dangers of 
buying fake products. And on March 19th, USPTO plans to conduct 
an event launching this initiative where it will release 
another anti-counterfeiting video to join in this effort.
    Finally, we will play a leading role in examining the state 
of current law with regard to secondary liability for online 
platforms for trademark infringement. The goal is to assess the 
state of current laws through secondary trademark liability and 
to hear from stakeholders regarding the potential need to 
enhance the laws in this area.
    Mrs. Roby. I thank you, Mr. Secretary.
    I thank you, Mr. Secretary.
    Mr. Serrano. Mr. Cartwright.
    Mr. Cartwright. I thank you, Mr. Chairman.
    And I thank you, Mr. Secretary, for deciding to come this 
year.
    Look, protecting the safety and the health of the American 
public I see as one of our highest duties. Don't you?
    Secretary Ross. Yes, sir.
    Mr. Cartwright. In your testimony, you spoke of the need to 
support the National Weather Service and its forecasting 
capabilities and of the vital importance of accurate forecasts 
of hurricanes and other extreme weather events, and I agree 
with that. It is vital to protect human American lives and also 
to safeguard our economy by accurate forecasting.
    But today you are here proposing nearly three quarters of a 
billion dollar cut to NOAA's overall budget. That is the 
National Oceanic and Atmospheric Administration. Is that 
approximately correct, about three quarters of a billion dollar 
cut to NOAA?
    Secretary Ross. Well, we are terminating certain parts and 
shrinking certain parts, but the regional climate services are 
critical to providing climate services tailored to the specific 
needs of the region that they serve.
    Mr. Cartwright. But overall it is about a three quarters of 
a billion dollar cut to NOAA's overall budget, correct?
    Secretary Ross. I believe a good part of that, sir, is due 
to difference in acquisition of hardware, but that sort of a 
number seems about right to me.
    Mr. Cartwright. OK. And Chairman Serrano was correct, 
wasn't he, when he said 24 programs are eliminated from NOAA 
under your proposed budget?
    Secretary Ross. The 24 programs have been merged into were 
superseded by other programs. It is not that none of those 
functions will be provided any longer.
    Mr. Cartwright. Is the answer ``yes,'' sir?
    Secretary Ross. Well, that is my answer, sir.
    Mr. Cartwright. The budget also proposes a 40 percent cut 
to oceanic and atmospheric research and a $15 million cut to 
the National Weather Service workforce.
    Mr. Secretary, it is important not only for the Government 
to have the resources accurately to forecast the weather but 
also for Americans to be able to trust the Government's 
forecast and warnings during a disaster. Last fall, this 
administration created unnecessary fear by grossly exaggerating 
the probability that Hurricane Dorian was going go into 
Alabama, despite scientific evidence telling us otherwise. 
Rather than helping stop public panic, your office directed 
NOAA to refute its own scientists and issue a statement pushing 
this false narrative. NOAA's chief scientist called this 
response, quote, political, unquote and a, quote, danger to 
public health and safety. NOAA's chief scientist said that, and 
your department's inspector general opened an investigation 
into the politicization of the forecast.
    Government employees are now fearful that their careers are 
at risk if they support sound science and if they tell the 
truth. Our government has to inspire confidence and trust in 
times of crisis. It is not a game. This goes beyond politics. 
Real lives are at stake.
    And here is what I am afraid of. I am afraid that your 
actions, which sowed distrust in our government, are going to 
have ramifications as we go forward battling this coronavirus. 
And I fear the administration in which you serve has not 
learned a lesson about the importance of truth in science and 
transparency. Your administration said that anybody that wants 
to test for a virus can get one, and scientists say: We don't 
have enough tests to do that.
    Your administration said the virus has already peaked. 
Scientists disagree.
    Your administration has made it clear that it wants to 
suppress the number of reported cases. Scientists want to 
understand the scope of the problem and take action to contain 
the virus.
    Americans need to be able to trust the government and 
especially in these life-threatening situations. Whether they 
be extreme weather events or pandemic outbreaks, when the 
health and safety of American families is at stake, we have to 
stick to facts and support the science, even if scientific 
evidence lead to conclusions that are not politically 
advantageous.
    Mr. Ross, I hope you understand the role you have played in 
sowing distrust in our Federal Government. Will you pledge 
today before all of us to do everything in your power to help 
restore trust in our government and only disseminate 
information that is accurate?
    Secretary Ross. Well, first of all, sir, I dispute many of 
the characterizations that you put forward. I did not order 
anyone to change a scientific opinion. As I said in my original 
confirmation hearings and have said repeatedly since, I am not 
a technologist. I believe scientists should be the ones who 
issue scientific judgments. I have never directed any scientist 
at NOAA to change one word of--or anywhere else--change one 
word of any research report nor have I ever threatened anyone 
with loss of job if they fail to do so. So those are inaccurate 
characterizations.
    I think there are probably other inaccuracies, but it was 
so many statements you made, I, frankly, don't remember all of 
the content, but I would be happy to address individual ones if 
you wish.
    Mr. Cartwright. I yield back, Mr. Chairman.
    Mr. Serrano. Mr. Case.
    Mr. Case. I thank you, Mr. Secretary.
    First of all, I want to associate myself fully with the 
remarks of Chair Serrano and Mr. Cartwright as to the 
Department's slashing of the National Oceanic and Atmospheric 
Administration's budget proposed slashing, a quarter of a 
billion dollars, 14 percent. This is the second year at least 
that, as I have been on this committee, subcommittee, where you 
have done that.
    And I don't understand what appears to be an institutional 
antipathy toward research and development on our oceans and 
atmosphere. It doesn't make any sense to me. These are critical 
parts of our natural world that influence us and impact us in 
some ways, whether they be scientific, economic, right across 
the board, and I am going to leave it at that. I don't support 
them. I hope that this Congress again restores and increases 
that funding. That is critical, and I don't get the policy 
judgments that are going into that.
    Let me move to another subject.
    Secretary Ross. Is there a question, sir?
    Mr. Case. No, it is just a statement.
    Secretary Ross. OK.
    Mr. Case. I would like to discuss our country's U.S. travel 
and tourism industry with you, which is critical, of course, to 
our country. This is an industry that is a multitrillion dollar 
industry for our country. Estimates it is somewhere in the 
range of 3 percent plus of GDP, millions of jobs, critical 
export industry, 10 percent of all exports, I think 30, 40 
percent, as I recall, of service exports in an industry that is 
obviously on the ropes because of the coronavirus crisis.
    And the impact is especially severe in States such as my 
Hawaii, where it is the No. 1 industry, accounting for one 
quarter-plus of our economy directly and indirectly a lot more, 
many, many jobs, and that is true of many, many other States.
    You are the chair of the Tourism Policy Council, which is 
our premier Federal organization that is intended to coordinate 
U.S. travel and tourism policy across nine departments, as well 
as the leaders of the travel and tourism industry. So you are 
at the epicenter of what the response is from our government to 
address the disproportionate impact of coronavirus on the 
travel and tourism industry.
    And I have got two questions for you. First of all, what 
can you tell us that you are doing about the travel and tourism 
industry at this dire time for the industry, number one? Number 
two, I did note that the Department of Commerce's budget 
request proposed a substantial reduction of the International 
Trade Administration, which is where the National Travel and 
Tourism Office is housed. And my question is: Would you 
reconsider that budget reduction as to the ITA in the context 
of the coronavirus, especially as it impacts the travel and 
tourism?
    And I am going to add a third question, which is relevant. 
Sorry about that. What specific appropriations do you believe 
you need to address this crisis from the perspective of the 
travel and tourism industry? What is not in your budget that, 
now that we know where we are and where we appear to be going 
on travel and tourism in this country, do you need to help this 
major industry?
    Secretary Ross. Well, you are certainly correct that we are 
very involved with the travel and tourism industry and are very 
active with helping to promote it. We meet quite regularly with 
the advisory council, which has among its members most of the 
major and many of the minor people in that industry.
    As to the coronavirus itself, the first obligation of the 
administration is to protect the American public. Once that has 
been done, then we can deal with the differential impact on 
individual industries. The President gave at least some 
indications, I think it was last night, about some measures he 
was considering to try to mitigate the effects. Let's see what 
he comes up with. But we are very, very concerned to try to 
protect the economy as much as we can within the confines of 
not wanting to spread the disease.
    Mr. Case. I agree very much with you, Mr. Secretary, that 
all of our first and foremost obligation is to protect our 
citizens and others, and I understand that that protection is 
going to inherently impact the travel and tourism industry. 
However, I would also say to you, sir, that I don't believe 
that this should be a sequential process because the travel and 
tourism industry is being impacted right now as a result of the 
responses that we need to be taking. So I would suggest to you 
that the council should focus with a laser sharp attention to 
what can be done to address the needs of this industry from an 
economic dislocation perspective now rather than down the road.
    Secretary Ross. Surely. Well, the best thing for travel and 
tourism, in fact, the best thing for the whole country, will be 
as quickly as possible finding a vaccine, as quickly as 
possible testing everybody, and as quickly as possible getting 
rid of this problem. I think the actions the President took 
already have helped prevent this from becoming an Italy type 
situation where, for all practical purposes, the whole country 
has been quarantined. So I don't think it is quite correct, 
sir, to say that it is been sequential. I think the 
administration has tried very hard to be on top of the problem. 
As you know, they give daily briefings, and they try to put 
into perspective the magnitude of the problem relative to the 
hysteria that has been generated around it. So we are trying 
our best to be responsible, give people accurate information, 
but not unduly alarm them so that they take remedies that are 
not necessary and are not warranted.
    Mr. Case. Thank you.
    Mr. Serrano. Ms. Meng.
    Ms. Meng. Thank you, Mr. Chairman.
    And thank you, Secretary Ross, for being here today.
    I wanted to follow up on Chairwoman Lowey's questions and 
comments about the false ads, whether it is from Facebook or 
the RNC, that had been mailed out. In regards to the Facebook 
ads that were removed that claimed to be part of the Census, 
did the Bureau take any further steps to dispel this 
information?
    Secretary Ross. Well, the Bureau has not been able to find 
any statutory authority to take any kind of enforcement action 
against anybody who has done misleading ads. We just don't have 
the authority to do anything.
    Ms. Meng. Did the Bureau post anything on its own rumors 
page that could help dispel the rumors?
    Secretary Ross. I know that it has posted information, such 
as the Census never asks for money. If I am not mistaken, that 
ad asks for money. They also--we posted that we never ask for 
Social Security number. So we tried to correct things and make 
clear what we do do and what we don't do.
    Ms. Meng. So, if an ad didn't request money or Social 
Security numbers or personal----
    Secretary Ross. I am sorry?
    Ms. Meng. So, if there was a similar ad, but it didn't 
request Social Security or private information, nor did it 
request money, would that be OK?
    Secretary Ross. No, I didn't suggest that. But you are 
asking what did we do in response to that specific ad. And 
those were specific features, as I recall it, in that ad.
    Ms. Meng. Was any information released, a statement perhaps 
by you or the Census Bureau, dispelling it?
    Secretary Ross. If we put out a statement every time that 
there was something that was erroneous, we would be putting out 
probably hundreds of statements a day. So it is really not 
practical for us to do that.
    Ms. Meng. And in terms of the mailers by the RNC, has that 
been posted on the web rumors web page or any public statements 
made about that?
    Secretary Ross. Well, the ad is down. The ad has been 
pulled down.
    Ms. Meng. Oh, I was talking about the mailers that 
Chairwoman Lowey was referring to, the RNC mailers.
    Secretary Ross. Yeah, I don't know the exact status of 
those. I would be glad to get back to you.
    Ms. Meng. Thank you. I appreciate that.
    Have you spoken with the President or anyone on his team on 
the government's side or the political side to request that 
they stop these look-alike mailers?
    Secretary Ross. I don't have any influence or control over 
the RNC and whatever ads they run. I had no idea that they were 
running that. They just did it.
    Ms. Meng. Will you work with any other agencies, maybe even 
the Justice Department, to make sure that the look-alike 
mailers are not being sent out by mail or by social media 
outlets, via social media?
    Secretary Ross. As I said, we have been researching but 
have yet to find where we have the statutory authority to take 
action to block them.
    Ms. Meng. I understand, and I appreciate that. I don't 
know, if you could get back to us with any further actions that 
your bureau or you might take, I think it would be really 
helpful and really influential if you or the Bureau could make 
any public statements dispelling this type of information that 
is being sent out.
    I wanted to ask another question, similar topic, about the 
Census. And as you know and as you have mentioned, it is 
imperative that everyone, regardless of citizenship, 
participates. We are trying to think of creative and cost-
effective ways for people to participate and to increase 
involvement. As you may know, in many States, including my home 
State of New York, when people participate in elections, when 
they go vote, they get a cute voting sticker that says ``I 
voted,'' and they pass it out to voters at polling stations, 
and people of all parties, you know, wear this as a point of 
pride and wear it all day and all week even. And this hopefully 
motivates others to vote as well.
    I was wondering if there was a similar idea that could be 
applied, such as a sticker, for example, for the purposes of 
the 2020 Census for people who are filling out the Census to 
encourage others.
    Secretary Ross. Well, we have done--one of the most 
undercounted and hard to count groups, are infants that are 
born during the calendar year prior to the Census date. So we 
have started a program of little hats to go to the babies about 
the Census. So that has been one way we have been trying to 
deal quite specifically with a severely undercounted part of 
the population.
    Ms. Meng. Thank you. I would love to work with you on 
potential ideas after that as well.
    Secretary Ross. Thank you.
    Ms. Meng. Thank you.
    I yield back.
    Mr. Serrano. Mrs. Lawrence.
    Mrs. Lawrence. Yes. Secretary, I just want to continue on 
that line of questioning about the flier that was circulated, 
and the last time I talked about some, they talked about 
rumors. I have a copy of it, and I just want to read what is 
said. It says, ``2020 Congressional District Census,'' and it 
says: ``Your participation is urgently needed as a key facet of 
our overall strategy to ensure President Trump and Republican 
candidates are re-elected. The Republican Party is conducting a 
Census of key members and supporters in congressional districts 
across the countries. The opinions registered in this document 
will be used to build and expand our national grassroots 
operation that will show that President Trump has the support 
of the American people to continue to move forward and act on 
critical issues facing our country.''
    I find it very challenging that, in your position as the 
Secretary that you have no communication or authority to have a 
conversation, I do believe you have staff meetings, to say that 
the party that you are affiliated with allegedly--it asks 
things like: How do you identify yourself? Do you think that 
President Trump is leading our country?
    And it says: You have been selected to represent voters and 
respond by a certain date, and please answer these questions to 
the best of your ability.
    This to me is horrible when we are all nonpartisan 
committed to an accurate count. And I campaign as well as 
anyone else, but this is unacceptable. And for you to say as 
the Secretary of Commerce that you really don't have any 
influence and you haven't taken steps to stop this is very 
troubling.
    I have a question for you. The development of 5G 
technology, U.S. leadership in 5G is very important. And I am 
concerned that the Chinese are playing a big role in global 
standard setting process for these new technologies. However, I 
have also been told that U.S. companies are actually scaling 
back their participation at global meetings, apparently due to 
the Commerce Department export control rules that say that our 
companies cannot participate in technology meetings if Huawei 
is attending. It seems to be defeating the purpose of 
maintaining our leadership.
    Can you please address that? And is that true?
    Secretary Ross. Yes. We issued quite a while ago a 
directive, a policy directive, clarifying that people can 
participate in international standard organization conferences. 
We are putting out a further one very shortly because some 
people apparently did not quite understand the original 
directive.
    Mrs. Lawrence. OK.
    Secretary Ross. But we are actually encouraging people to 
participate, but as to Huawei, I think my views on Huawei are 
pretty well known. So I am certainly not a co-conspirator of 
Huawei.
    Mrs. Lawrence. I understand that but we have to have a seat 
at the table, and I hope that you clarify that.
    My last question for you, sir, is last year I introduced 
H.R. 153. That is the resolution supporting the guidelines for 
ethical development of artificial intelligence. While I commend 
the administration's request of a total of $1.1 billion in 
nondefense AI research, that number is far lower than what 
needs to be done. For context, the Chinese government has spent 
over $8 billion in 2018. We need to ensure that the President's 
focus on AI does not come at the deterrent of other research. 
This technology is going to be transformational in how we do 
business. How can we expect the United States to remain 
competitive with countries like China when we don't take a 
holistic approach to investment and R&D?
    Secretary Ross. Well, I think the administration is very 
keenly interested in promoting artificial intelligence as a 
research activity and NIST, the National Institute of Standards 
and Technology, which is part of commerce, has long been--had 
AI as a very big strategic priority. Our purpose is to develop 
the foundation for confidence and trust in AI that results in 
expanded commercial marketplace and new research outcomes. The 
President's budget provides an increase of $25 million for 
measurement tools and test beds to accelerate the development 
and adoption of interoperable secure and reliable AI----
    Mrs. Lawrence. Is that enough to make us competitive with 
China, who is spending $8 billion?
    Secretary Ross. Well, we are doing what we can do. There 
also are initiatives at the White House Office of Science and 
Technology. There are other administration-wide initiatives. 
But at the end of the day, the vast bulk of this work is, in 
fact, being done by the private sector.
    Mrs. Lawrence. Thank you.
    I yield back.
    Mr. Serrano. Thank you.
    Mr. Secretary, later this week individuals across the U.S. 
will start receiving invitations to respond to the Census, 
using its first ever online option, on My2020census.gov. We 
will obviously be watching this closely in the upcoming months, 
especially in the light of the recent change from an external 
to internal system to ensure it can handle a very large number 
of online responses at any one time. While I am hopeful that 
everything goes smoothly, I want to make sure I understand the 
plans for if things don't. Can you explain what the contingency 
plan is if both online systems fail? Will we need to rush and 
hire more enumerators, increase the number of mailings? What is 
the plan?
    Secretary Ross. Well, first of all, Chairman, we have two 
online systems. So they both would have to fail, and they both 
have redundancy built in because they are cloud-based systems. 
So the probability of all of that collapsing and staying down 
for an extended period is hopefully very, very low.
    Second, as I believe I mentioned earlier, we have a fusion 
center and a crisis management committee. The fusion center 
operates 24/7, monitors weather events, monitors all sorts of 
news events at every single location in the country that we 
have any relevance to, and it makes recommendations at least 
daily to the crisis management team. So we have a structural 
situation that seems as well equipped as we can to deal with 
it.
    In terms of fallback position, we deliberately overprinted 
the questionnaires, the Census questionnaires, by quite a lot 
of millions of units so that if we were in some particular 
region or elsewhere and need for more forms to go out, that at 
least we have the forms. So we have been trying to be, within 
the normal bounds, equipped to deal with crises. It is not 
practical to reprint the whole--all of the Census forms. As you 
can appreciate, that is hundreds of millions of documents. It 
is the world's largest printing job. So we do not have 100 
percent coverage, but we have very substantial coverage.
    Mr. Serrano. So you are confident that there are fallback 
positions and that, as you said, it would have to have two 
systems to fail, but we have seen where hacking and other 
things or just malfunctions can create havoc. So it is very 
important for this committee to know, at the minimum, that you 
feel confident that it is not going to happen or if it happens 
it can be taken care of.
    Secretary Ross. I do, and the reason I could do is that we 
have worked with all of the relevant cyber security agencies 
within Federal Government, and we have also used outside 
contractors to try to penetrate the system, and whatever flaws 
they found, we have corrected. So we are doing the best we can. 
In today's world, nobody can give a 100 percent assurance that 
we won't be hacked, but I believe we have at least as effective 
a protective system as anyone. The data are coded from the 
moment we get it, while it is in transit, and while it is at 
risk. There are multiple layers that people need to get through 
to access the data, and the access of individuals is extremely 
limited and those individuals who do have any access are part 
of the group that has taken a lifetime oath not to let anything 
be revealed on individual data.
    So we have done everything that we can think of to deal 
with that problem and, to the degree that there are incursions 
that are successful, we will deal with those on the spot, and 
we are prepared to deal with them 24/7.
    Mr. Serrano. Thank you.
    Mr. Secretary, I would like to ask about the Office of 
Space Commerce. My understanding is that this office is 
currently reporting directly to your office. Is that correct?
    Secretary Ross. Yes, that is correct, sir.
    Mr. Serrano. Mr. Secretary, your request to make this 
operational realignment last year was blocked by language which 
was carried in both the House and Senate appropriations 
reports. So can you explain to me why you have contravened 
explicit congressional direction? I mean, it was clear that 
that is not what we wanted.
    Secretary Ross. We have complied with the congressional 
direction. The specific direction was that we retain NAPA, an 
outside agency, to conduct a survey as to where the Office of 
Space Commerce should be located. The Congress appropriated 
$1.1 million for that purpose. I am happy to report we were 
able to negotiate the contract down to about $880,000. The 
contract has been signed, and NAPA is at work.
    Mr. Serrano. My understanding is that you are correct in 
what you say, except we have put language in saying: Do not 
move. Do not make these moves until the report is in.
    Secretary Ross. We have not moved it yet, sir. That has not 
been moved.
    Mr. Serrano. They should be reporting to the NOAA 
administrator.
    Secretary Ross. I am sorry?
    Mr. Serrano. They should be reporting to the NOAA 
administrator. You are saying they are reporting to you.
    Secretary Ross. I think we have reported, have we not? 
Yeah.
    Mr. Serrano. Well, that is not what we are hearing from 
NOAA. So maybe you can talk to NOAA and find out why we are 
getting conflicting information because----
    Secretary Ross. What is the information you are getting 
from NOAA, sir?
    Mr. Serrano. That they are reporting directly to you.
    Secretary Ross. No. I interact with them, but we have not 
moved them, nor have we raised the budget, and we look forward 
to continuing to work with the authorizers and appropriations 
in hope that we will achieve our goal of moving the office and 
elevating it to the secretarial level.
    Mr. Serrano. Well, then, in that case, I would hope that 
you can reach out to them and find out why we are getting this 
contradictory information.
    Secretary Ross. We will talk again with NOAA today, but 
whoever has told you that it has been moved is incorrect.
    Mr. Serrano. All right. Thank you.
    Mr. Aderholt.
    Mr. Aderholt. Thank you, Mr. Chairman.
    Mr. Secretary, in my opening statement, I mentioned the 
devastating affect that tornadoes have had on the Southeast, 
and in truth I mentioned Alabama and Tennessee. This budget 
proposes a $3.2 million increase to establish a tornado warning 
improvement and extension program to improve the accuracy and 
timelines of tornado forecasts, predictions, and warnings. 
However, I am concerned that this increase is more than offset 
by a $5 million termination of the Vortex Southeast Program and 
the $1 million reduction of the tornado severe storm research 
line.
    My question to you is, has Vortex Southeast Program 
accomplished what it set out to do, or is there more still to 
be done?
    Secretary Ross. Well, the Vortex Southeast Program has been 
a success. We are very happy with it. The physical science work 
of former past Vortex SE field campaigns will feed into NOAA's 
new tornado program, which is called Tornado Warning 
Improvement and Extension Program, TWIEP, and that is codified 
in the bipartisan Weather Act. TWIEP and Vortex Southeast are 
distinct but complementary programs. TWIEP evaluates model 
improvements, probabilistic guidance products, and the changes 
in the warning process and in the technologies to get the 
information out to the public. Vortex SE studies the 
characteristics of tornadoes that typically occur in the 
southeastern United States and the public response issues that 
they encounter with the significant rural and vulnerable 
population.
    Mr. Aderholt. If Congress were to restore the Vortex 
Southeast Program for fiscal year 2021, would it still, as you 
mentioned, complement this new Tornado Warning Improvement and 
Extension Program, or are the two programs in conflict and we 
would have to choose one or the other?
    Secretary Ross. I think we have learned the lessons that we 
need to learn from the vortex program, but at the end of the 
day, it is you fellows who decide where we spend the monies. So 
we would obviously follow your guidance.
    Mr. Aderholt. NEXRAD is a primary tool that is used by 
NOAA's meteorologists for issuing warnings for flash floods, 
for tornadoes, and for severe thunderstorms. Though the system 
is nearing the end of its life. According to NOAA's budget 
request, the Federal Government is still 20 years away from 
full deployment of the next generation of weather radar design, 
and yet this budget proposes to reduce maintenance by $1 
million and the Service Life Extension Program by $550,000, 
which will reduce NEXRAD's operational building from 96 percent 
down to 81 percent by 2025.
    What is the rationale for cutting back on this critical 
radar network when we are still 20 years away from fully 
deploying its replacement.
    Secretary Ross. Yes, sir. The $550,000 decrease for the 
Service Life Extension program, SLEP, is a plan decrease that 
reflects the award of major contracts on the pedestal and 
shelter refurbishments and the generator replacement projects 
that are now in deployment. NEXRAD SLEP is a multiyear effort 
that began in 2015 and will be completed in 2024. The SLEP will 
extend the useful life of the NEXRAD array by approximately 15 
years.
    At the same time, NOAA continues to pursue research into 
its next-generation weather radar systems, including the phased 
array Radar Program. The million dollar maintenance decrease 
will result in deferring some routine maintenance and repair of 
certain components of NOAA's NEXRAD radars; namely, the radome 
and tower maintenance service. But in 2021, the operational 
ability will remain at 93 percent. So it is at a pretty high 
level of effectiveness.
    Mr. Aderholt. Yeah. And what we are concerned, I guess, 
with is if you look toward 2025, that there would be a decrease 
down to 81 percent.
    Let me go, continue on. We have come certainly a long way 
with weather forecasting, but we all know there is significant 
room for improvement. Currently, the United States is not the 
world leader in weather forecasting, but I understand that, 
with recent procurement of additional super computers and with 
the EPIC, which is the Earth Prediction Innovation Center, that 
with the EPIC initiative, we are positioned to significantly 
increase our capabilities in the coming years.
    Can you talk to us about where the U.S. is headed with its 
weather forecasting capabilities and how this fiscal 2021 
budget is critical to helping us get there?
    Secretary Ross. Surely, sir. The bipartisan Weather Act 
provides NOAA with the path forward on how to reclaim 
international leadership in weather forecasting. I thank you 
for supporting that legislation because implementing the 
Weather Act is a top priority for NOAA. The fiscal 2021 budget 
provides funding for a number of Weather Act mandates, 
including the Earth Prediction Innovation Center at $15 
million. That is the EPIC to which you referred. And that will 
transform how NOAA collaborates with the weather enterprise on 
forecast improvements. The fiscal 2021 budget request also 
supports a new Tornado Warning Improvement and Extension 
Program, TWIEP, which will advance NOAA's tornado observing 
systems, thunderstorm scale computer models, and risk 
communication approaches.
    Finally, the fiscal year 2021 budget expands NOAA's 
Commercial Weather Data Pilot Project and Commercial Data 
Purchase Program. These programs will allow NOAA to test 
cutting-edge technologies from the private sector and, if 
suitable, purchase them to further improve our weather forecast 
accuracy.
    Mr. Aderholt. Thank you.
    My time has run out. Thank you, Mr. Chairman.
    Secretary Ross. Mr. Chairman, we have been going now for an 
hour and a half. May we take a short break?
    Mr. Serrano. Yes.
    Secretary Ross. Unless it is a just a little bit more to 
go.
    Mr. Cartwright. I only have a few minutes.
    Secretary Ross. Let's just go.
    Mr. Serrano. We have only a few members, and they claim 
they only have a few, and I accept that so----
    Secretary Ross. All right. Well, then I will try my best to 
hold out.
    Mr. Serrano. They state--I am sorry. Not they claim, they 
state.
    Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Secretary Ross, you were asked by my colleague, 
Congresswoman Meng about this 2020 congressional district 
Census that turned out to be a survey sent out by the 
Republican National Committee.
    Do you recall those questions Ms. Meng had for you.
    Secretary Ross. Yes, sir.
    Mr. Cartwright. I would like unanimous consent to enter 
this misleading survey into the record.
    Mr. Serrano. Without objection.
    Mr. Cartwright. OK. Now, there is a difference though, Mr. 
Secretary, between this survey, which is printed out on copy 
paper so it is a white. The one that was sent to people was on 
blue paper. Were you aware of that?
    Secretary Ross. I have not seen the one that was sent.
    Mr. Cartwright. The Census itself is on blue paper. Am I 
correct in that?
    Secretary Ross. Yes, yes.
    Mr. Cartwright. So this was something that was made, 
deliberately made, to look like the Census. In fact, it says 
``2020 Congressional District Census'' on the paper. So the 
idea is this is deliberately made to look like the Census and 
make people think it is the Census, and the idea is that it 
will mislead people. And you understand that, Secretary Ross, 
it will mislead elderly and/or infirm people into thinking that 
they have already received the Census and responded to it and 
so mislead them into declining to respond to the actual Census 
when it comes later.
    You understand all of that, right?
    Secretary Ross. To the degree that were proven to be the 
case, we would then go the nonresponse followup; namely, a 
person coming around door to door to explain, and preceding 
that, there would be additional mailings from us to the people.
    Mr. Cartwright. Well, you are the head of the Census, 
Secretary Ross. Is that correct?
    Secretary Ross. Well, I am the head of Commerce to which 
Census is a part.
    Mr. Cartwright. And you are absolutely committed, are you 
not, to the accuracy of this Census count?
    Secretary Ross. Yes, sir, yes, sir.
    Mr. Cartwright. So you would be highly atoned to any kind 
of scams or falsehoods or misleading mailers of this nature, 
wouldn't you?
    Secretary Ross. Well, as I mentioned to the Senate last 
week when asked a similar question, I have directed the staff 
at Census to review the information and provide their 
recommendations. And once that review has been completed, I 
will be happy to report back to the committee.
    Mr. Cartwright. You found out about this, this Census 
survey, from the RNC before today, didn't you?
    Secretary Ross. Yes. I learned about it a little bit ago.
    Mr. Cartwright. OK. How did you find out about it?
    Secretary Ross. Someone raised it with me. I don't recall 
who.
    Mr. Cartwright. There was an article on the whole thing in 
the Los Angeles Times dated February 20 of this year. Did you 
see that article?
    Secretary Ross. No. I am not a normal reader of the L.A. 
Times, sir.
    Mr. Cartwright. But you are a reader of everything that has 
to do with the Census, aren't you?
    Secretary Ross. I try to be, but you would be amazed how 
much written material there is about it nowadays.
    Mr. Cartwright. Your testimony today was you haven't done 
anything about this mailer because you are lacking statutory 
authority to do that. Is that what you said?
    Secretary Ross. No. What I said was, as I mentioned to the 
Senate last week, I have directed the career staff at Census to 
see what, if anything, there is we can do about it.
    Mr. Cartwright. Earlier today you said you couldn't find 
any statutory authority to follow up. What did you mean?
    Secretary Ross. That is correct. We have not found it as 
yet.
    Mr. Cartwright. Well, when you mislead somebody with a 
mailer, that is called mail fraud. Isn't it?
    Secretary Ross. That is a legal judgment, sir, I am not 
qualified to make.
    Mr. Cartwright. No, but lawyers are. And have you made a 
referral of this matter to the Justice Department for their 
review?
    Secretary Ross. No, I have not. I have asked the Census 
staff to figure out what, if anything, we can or should do 
about it.
    Mr. Cartwright. When did you ask them that?
    Secretary Ross. Some days ago.
    Mr. Cartwright. This isn't the first time the RNC did this 
kind of thing. After the last Decennial Census in 2010, they 
did the same sort of thing, and our colleague, Carolyn Maloney 
from New York filed a bill to make that illegal, and that bill 
passed. That is the law. And the question is--and it passed on 
a bipartisan basis, Secretary Ross. So my question is, have you 
done anything to see if that law applies to this mailer?
    Secretary Ross. As I said, I have asked the staff to review 
the question. I am not intimately familiar with that law 
myself.
    Mr. Cartwright. I yield back, Mr. Chair.
    Mr. Serrano. Ms. Meng.
    Ms. Meng. Thank you.
    I wanted to ask about a different topic. A new rule shifts 
responsibility from the State Department to your department for 
making decisions about whether or not a company will get a 
license to post the computer code that enables the 3-D printing 
of firearms on the internet. Your department will now soon be 
responsible for deciding whether downloadable 3-D printed guns 
could become widely available.
    The first question, do you believe that allowing the 
blueprints of 3-D printed guns to be available on the internet 
is in our Nation's best safety and security interests?
    Secretary Ross. The commerce rules were not enjoined by the 
litigation in the court. The BIS has posted guidance to license 
applications on its website, and I would direct you there. I am 
afraid I can't comment further due to the fact this is in 
continuing litigation.
    Ms. Meng. You can't answer any questions about your 
department?
    Secretary Ross. About the litigation, no, ma'am.
    Ms. Meng. OK. Do you recognize the danger of 3-D printed 
guns in general? It doesn't have to be in relation to your 
department.
    Secretary Ross. Yes, as I mentioned, we have provided 
advice, and the advice is that licenses would have to be 
applied for. As I understand it, that has not been enjoined by 
the court.
    Ms. Meng. Do you know that 30 percent of all guns that have 
been retrieved in California, for example, are ghost guns?
    Secretary Ross. I am sorry, I couldn't hear.
    Ms. Meng. 30 percent of all guns that are retrieved in the 
state of California are ghost guns. Do you know that?
    Secretary Ross. That could well be. Is there a question in 
that, ma'am?
    Ms. Meng. No. I just asked you yes or no.
    Secretary Ross. Oh.
    Ms. Meng. Do you know that the State Department has 
previously said that downloadable guns off of the internet 
could be a national security risk?
    Secretary Ross. Yes, I am aware of that.
    Ms. Meng. Do you know that certain 3-D printed guns could 
easily pass through metal detectors without any alarms?
    Secretary Ross. Well, 3-D gun publication plans has not 
been relieved of an obligation to license. There has been no 
deregulation of it. The licensing requirement stands, as it has 
been.
    Ms. Meng. Correct. I am just asking if you realize that 3-D 
guns could--because they are made of plastic could easily pass 
through metal detectors without setting off any alarms.
    Secretary Ross. Sure?
    Ms. Meng. And do you agree--do you know that no background 
checks could be detected because of the needed parts to make 3-
D guns?
    Secretary Ross. As I said, there is no change in the 
licensing procedures from what had been before.
    Ms. Meng. So I wanted to, in line with that, there was a 
man named Cody Wilson who was at the forefront of the 
downloadable gun movement. He is a self-described anarchist 
looking to make 3-D guns available to anyone with an internet 
connection. Last September, he was sentenced to 7 years of 
probation after he pled guilty to injuring a child following 
accusations that he sexually assaulted a 16-year-old girl. He 
was required to register as a sex offender.
    Do you support allowing sexual offenders to have gun 
licenses?
    Secretary Ross. I think that we have to consider all 
behavior patterns in deciding whether or not to give a license, 
and that would certainly be something that one would view with 
great severity.
    Ms. Meng. Would I be able to get you and the Commerce 
Department to commit to not issuing a license to this sex 
offender or anyone else seeking to post downloadable gun 
computer codes online?
    Secretary Ross. Well, we, as I say, are not changing 
anything to do with the licensing procedure. We have no 
intention--assuming that the litigation is resolved, we have no 
intention of weakening any of the provisions.
    Ms. Meng. OK. Thank you.
    I yield back.
    Mr. Serrano. Mrs. Lawrence.
    Mrs. Lawrence. Yes, Mr. Secretary, and I hope this will be 
the last question. But I wanted to give you some information. 
The RNC attempted to do the same mailer in 2010. Congress 
passed, on a bipartisan basis--as a matter of fact, it was 416 
to zero--The Prevent Deceptive Census Look Alike Mailing Act to 
prohibit mailers that could cause Americans to believe that 
they had already filled out the Census. Again, the DNC modified 
the mailer to bypass the law and the action again drew 
bipartisan rebuke. Former Representative Jason Chaffetz, a 
chairman of the Oversight Committee, sent a letter to the 
chairman of the RNC urging, and I quote: I write today to ask 
you to seriously reconsider the use of such deceptive and 
misleading tactics. Simply put, the RNC should not invoke the 
Official U.S. Census as a means to confuse and deceive 
recipients of the mailer and to opening it, thinking that they 
are complying with their civic duty.
    Then the Ranking Member, Darrell Issa introduced 
legislation to clarify the emphasis in which the term 
``Census'' can apply on mailers. Just as before, this 
legislation passed unanimously through both Chambers and was 
signed into law.
    So, again, I am challenged with how you have this 
disconnection and you are just looking at it when we have laws 
on the books and the Republican Party itself has led the 
legislation to stop this behavior, yet again, 10 years later, 
here we are using the same tactics.
    So, Secretary Ross, there are some things that, if you are 
challenged and don't know what to do with it. There is the 
Postal Inspection Service, who can investigate based on law. 
And it is also the Department of Justice because we have law to 
regulate this. And for you as the Secretary to just kind of 
like ``I don't know what to do; we are looking into it,'' have 
your department research law.
    Thank you.
    Secretary Ross. Well, we do not believe we have the 
statutory authority. If it is the case that the Postal Service 
does or DOJ does, then they are the appropriate parties to 
enforce. We don't have, as far as we can tell, the unilateral 
enforcement authority.
    Mrs. Lawrence. So, Mr. Ross, if another group just makes up 
a Census form, starts knocking on doors, going door to door, 
you would say, ``I have no jurisdiction over that, yes, I know 
other groups are out there, it is not my responsibility,'' is 
what I am hearing?
    Secretary Ross. We lack the authority.
    Mrs. Lawrence. But you have law on the books.
    Secretary Ross. Well, if there is a law on the books, then 
those people who are charged with enforcing it are the ones who 
should enforce it.
    Mr. Cartwright. Have you recommended that they enforce the 
law?
    Secretary Ross. We do not have the enforcement----
    Mr. Cartwright. Did you recommend to those who have the 
authority to enforce the law?
    Secretary Ross. I think they should do what their legal 
counsel tells them they are obliged to do under the law.
    Mrs. Lawrence. Mr. Secretary, I just want you to know that 
I just find those answers to be confusing and unacceptable 
because the Census we have allocated over and for 2020 $6.7 
billion to conduct the Census. That is our taxpayer dollars 
and, you know, you have given your answers, but I find them 
unacceptable.
    Thank you.
    Secretary Ross. I am sorry, but we don't have the authority 
to do some of the things that you might like us to do.
    Mr. Serrano. Thank you.
    Mr. Secretary, before we close, let me just tell you that 
this committee, as you can see, is very much interested in how 
we conduct the Census, and it is very hard around here, almost 
impossible to get a bipartisan bill passed with no opposition. 
And that bill was clear that these kind of behaviors were not 
to be accepted. So who enforces it, I think it behooves you and 
other people in the administration to find out from each other 
who enforces it so it doesn't happen again, we can deal with 
what is happening right now, please.
    And I thank you for your testimony today. There will be 
more questions for the record. In a friendly way, I ask you to 
please consider answering those questions much sooner than last 
year's questions we just got answered 4 days ago because we are 
cutting the hearing at this point, but the questions are still 
important to us and we need the answers.
    Secretary Ross. Thank you, sir.
    Mr. Serrano. Thank you. And thank you and the subcommittee 
is adjourned.

                                  <all>
</pre></body></html>
